<html>
<title> - HEARING ON THE NOMINATION OF MICHAEL S. REGAN TO BE ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 117-1]
[From the U.S. Government Publishing Office]





                                                          S. Hrg. 117-1
 
                      HEARING ON THE NOMINATION OF
                  MICHAEL S. REGAN TO BE ADMINISTRATOR
                 OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

  


        Available via the World Wide Web: http://www.govinfo.gov
 
                            ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
43-814 PDF             WASHINGTON : 2021 
         
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 3, 2021
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5

                               WITNESSES

Burr, Hon. Richard, U.S. Senator from the State of North Carolina     9
Tillis, Hon. Thom, U.S. Senator from the State of North Carolina.    10
Regan, Michael S., nominated to be Administrator of the 
  Environmental Protection Agency................................    11
    Prepared statement...........................................    14
    Responses to additional questions from:
        Senator Carper...........................................    17
        Senator Carper for Senator Booker........................    20
        Senator Whitehouse.......................................    22
        Senator Kelly............................................    23
        Senator Padilla..........................................    26
        Senator Capito...........................................    28
        Senator Capito for Senator Barrasso......................    87
        Senator Capito for Senator Rounds........................    94
        Senator Inhofe...........................................    96
        Senator Cramer...........................................   101
    Response to an additional question from Senator Boozman......   105
    Responses to additional questions from:
        Senator Wicker...........................................   106
        Senator Sullivan.........................................   108
        Senator Ernst............................................   110

                          ADDITIONAL MATERIAL

Family-Supporting Union Jobs Major Component of Biden's Climate 
  Actions, AFL-CIO, January 27, 2021.............................   132
Obama's Last Three Years Of Job Growth All Beat Trump's Best 
  Year, Forbes, February 7, 2020.................................   133
Letter to Senators Carper and Capito from the Agricultural 
  Retailers Association et al., January 20, 2021.................   148
Indigenous Women Call Upon Biden to Stop Pipelines and Uphold 
  Indigenous Rights in the Wake of Escalating Climate Chaos and 
  Covid-19 Crises, Women's Earth & Climate Action Network, 
  January 14, 2021...............................................   160
Biden Revokes Keystone XL, Indigenous Leaders Celebrate and Push 
  for Stronger Action, the Indigenous Environmental Network, 
  January 20, 2021...............................................   163
NDN Collective Responds to President Biden Rescinding Keystone XL 
  Pipeline Permit and Vow to Rejoin the Paris Agreement, the NDN 
  Collective, January 21, 2021...................................   165
Debunking the Trump Administration's New Water Rule, Center for 
  American Progress, March 27, 2019..............................   168
Will Keystone XL Pipeline Create Many Construction Jobs?, Live 
  Science, August 7, 2013........................................   173
The Keystone XL Tar Sands Pipeline Is Still a Bad Idea, the 
  Natural Resources Defense Council, January 23, 2017............   177
Toyota, Fiat Chrysler drop support for Trump effort to bar 
  California emissions rules, Reuters, accessed February 3, 2021.   183
Fact check: Did Biden `destroy' 11,000 Keystone Pipeline jobs?, 
  wral.com, January 25, 2021.....................................   186
Statement congratulating Secretary Regan on his nomination, Duke 
  Energy.........................................................   192
Letter to Senators Carper and Capito from:
    The Chemours Company, February 2, 2021.......................   193
    The Edison Electric Institute, February 2, 2021..............   195
    The National Cattlemen's Beef Association, January 26, 2021..   196
    The Outdoor Industry Association, February 2, 2021...........   197
    AmericanHort et al., January 27, 2021........................   199
    The Renewable Fuels Association, February 1, 2021............   200
    The Rural Community Assistance Partnership, January 29, 2021.   201
    The Alaska Salmon Habitat Information Program, February 5, 
      2021.......................................................   202
    The Recycling Partnership, February 3, 2021..................   204
    The Theodore Roosevelt Conservation Partnership, February 3, 
      2021.......................................................   205
Letter to:
    President Joseph R. Biden, Jr., from Patrick Morrisey, West 
      Virginia Attorney General, et al., January 27, 2021........   206
    The members of the Committee on Environment and Public Works 
      from the Chamber of Commerce of the United States of 
      America, February 8, 2021..................................   212
    Senators Charles E. Schumer et al. from the BlueGreen 
      Alliance, February 2, 2021.................................   213
    Senators Chuck Schumer et al. from the Alabama Rivers 
      Alliance et al., February 2, 2021..........................   215
    Senators Chuck Schumer et al. from the Evangelical 
      Environmental Network, February 2, 2021....................   218
    Senator Carper from the Healing Our Waters--Great Lakes 
      Coalition, February 2, 2021................................   220
    Senators Barrasso and Carper from PeopleForBikes, February 3, 
      2021.......................................................   223
    Senator from the National Parks Conservation Association, 
      February 1, 2021...........................................   224
    Senator from the National Religious Partnership for the 
      Environment, February 8, 2021..............................   226


 HEARING ON THE NOMINATION OF MICHAEL S. REGAN TO BE ADMINISTRATOR OF 
                  THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:04 p.m. in room 
106, Dirksen Senate Office Building, Hon. Shelley Moore Capito 
(Chairman of the Committee) presiding.
    Present: Senators Capito, Carper, Barrasso, Inhofe, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Ernst, Lummis, 
Cardin, Whitehouse, Merkley, Gillibrand, Booker, Markey, 
Duckworth, and Van Hollen.
    Senator Capito. I would like to call the Committee to 
order. I think we have an exciting day today. Any time that we 
are considering one of the President's nominees to an extremely 
important Cabinet position, it bears our not just great 
attention, but also our gratitude to folks who put their names 
in for public service. So we will get a lot into that today.
    In finality, this is our Chairman's, Chairman Barrasso's 
final meeting, final showing in EPW. He will be moving over to 
Energy in a leadership position over there. He will also be 
leaving this Committee.
    So it is with great sadness and regret that we know that 
you are leaving, Chairman Barrasso. We thank you so much for 
your years of service here, and certainly your leadership as 
Chairman of this extremely important Committee, particularly 
with that Transportation Bill last year.
    So I am going to turn it over to you for some statements, 
and then we will proceed with the rest of the meeting.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you so very much, Senator Capito.
    We are here today to consider the nomination of Michael S. 
Regan to be Administrator of the Environmental Protection 
Agency.
    But before we begin with the formal proceedings, I see the 
two Senators from North Carolina are here to do introductions, 
I just want to start by saying a few words about our incoming 
Chairman, Tom Carper, and our incoming Ranking Member, Shelley 
Moore Capito.
    For the past 4 years, it has been a pleasure to work so 
closely with both Senators Carper and Capito here on the 
Committee. Our partnership, the three of us, as well as other 
members of the Committee, resulted in two separate bipartisan 
water infrastructure laws that are going to create jobs and 
provide clean drinking water to communities, increase water 
storage in the West, prevent floods, replenish beaches on the 
coast, and help keep our economy moving.
    We wrote comprehensive, historic highway infrastructure 
legislation that included hundreds of billions of dollars for 
America's roads and bridges. Our highway legislation cut red 
tape for important construction projects while also including 
the first ever--first ever climate title to protect our 
environment coming out of this Committee, as part of the 
Transportation Bill.
    Senator Carper was my bipartisan partner on these efforts, 
and Senator Capito played a central and critical role in 
writing these bills, as she served as the Chair of the 
Infrastructure Subcommittee.
    Our highway legislation passed the EPW Committee 
unanimously, 21 to zero.
    Senator Carper and I also worked together to pass multiple 
laws to protect wildlife. The WILD Act is going to help spark 
groundbreaking conservation innovation and protect iconic 
species.
    We also passed the America's Conservation Enhancement Act, 
also known as the ACE Act. The purpose, of course, was to 
combat invasive species, to address emerging wildlife diseases 
like chronic wasting disease, all while protecting livestock 
from predators. These bills were praised by farmers, hunters, 
anglers, conservation groups, environmentalists, and our home 
States.
    Finally, we partnered to pass a historic environmental 
innovation law that will boost carbon capture technologies 
while also reducing greenhouse gases from our homes, our air 
conditioners, and our school buses. This Committee has served 
as a shining example of what can be accomplished when Democrats 
and Republicans work together. We agreed to follow Senator 
Enzi's 80-20 rule, and we worked where we could, and we found 
common ground repeatedly.
    Bipartisan change is lasting change. It will make a big 
difference for a long time to come. We were able to work 
together to get things done for the American people.
    Senator Carper, I sincerely want to thank you, thank your 
staff, for working with me over these past 4 years, and for 
your dedication to getting so very much done in a bipartisan 
and productive way. And I am very confident that that 
productive partnership is going to continue with Senator Capito 
as the top Republican on the Committee. As I have already said, 
she has played such a critical and crucial role in getting our 
infrastructure legislation across the finish line. She also was 
a leader when our Committee worked across party lines to 
address pollution from PFAS chemicals, a leader in that area, a 
priority for her and her home State.
    So I know she will lead the Republicans on the EPW very 
well. This Committee is in very capable hands.
    With that, I will turn the gavel over to Senator Capito to 
preside over the hearing.
    Thank you to both of you.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. I appreciate your 
being here.
    We have another former Chairman here as well, and then in 
probably 5 minutes, the soon to be Chairman. So I get to be a 
Chairman, too, so this is probably some historic number of 
Chairmen here.
    Thank you again for your service to this Committee. I know 
you will do great work over on Energy, as you do everywhere. So 
thanks a lot, and thanks for enumerating some of the successes 
from last year.
    I would like to give an opening statement, then I will turn 
to my Ranking Member, who is my Ranking Member for 10 minutes.
    In any event, some of the successes I would like to talk 
about that we were able to achieve in this Committee over the 
last several years was when President Trump signed the USEIT 
Act, which supports carbon capture and utilization, and 
sequestration. It was a great bipartisan bill that Senator 
Whitehouse and Senator Barrasso and several of us on the 
Committee worked on together.
    The Diesel Emissions Reduction Act, which is something we 
have been working for years, was passed. Another WRDA bill went 
through at the end of the year, which is always a good every 2 
year exercise for all of us. And the American Innovation in 
Manufacturing, or the AIM Act, which will reduce emissions of 
HFCs used in air conditioning and refrigeration.
    So that spirit of bipartisanship that we had last year I 
hope is one that we can, and I intend to certainly maintain and 
foster, and from our conversations, numerous conversations, I 
know, I feel as though Senator Carper feels the same way.
    Our most pressing focus this Congress will be passing the 5 
year Highway Bill. This is a tall order, but one where this 
Committee has already had a record of success. Senator Barrasso 
talked about it. We reported out the bill 21 to nothing last 
year, and I look forward to--and I think we are going to have 
quick work taking up the Highway Bill in this Committee. 
Because the importance, not just to our Nation's 
infrastructure, but also to our employment structure here; it 
is a jobs bill. It always has been, and it will remain that 
way, and at a time no more timely than the present. So I look 
forward to working with everybody because we must give our 
States the certainty.
    With that optimistic introduction, I want to welcome our 
nominee for Secretary, Michael Regan, and his family here, the 
nominee for EPA Administrator, to our Committee today. I got to 
meet his wife and his very fun and smart young son, Matthew.
    So congratulations on your nomination. I look forward to 
the opportunity to get to know you better, and discuss and work 
together into the future.
    While I am encouraged by the continuing bipartisanship 
among members of our Committee, I am concerned by the direction 
that the Administration has taken in the first few weeks of 
office. I want to understand your position on these policies. 
We talked on the phone about this. President Biden did campaign 
on issues of unity, and there is no committee where we praise 
unity more, and sometimes we have more disunity sometimes, than 
this Committee that we are sitting on.
    The barrage of executive orders has particular concern for 
me. His decision on the Keystone XL pipeline has, I think, 
great impacts in the job markets. He has put us back in the 
Paris Agreement, which also has great impacts, both 
economically in this country, and his Administration has 
doubled down on the desire to financially support other 
countries' climate goals, while our own country, as we know, is 
facing economic challenges.
    He has ordered agencies across the Federal Government to 
examine and uproot critical regulatory reforms, including 
several within the jurisdiction of the EPA, even without an 
administrator in place. Executive Order 13990 directs the EPA 
to consider suspending, revising, or rescinding major rules 
that were put into place by the Trump administration. Those 
rules include regulations on methane emissions; the safer, 
affordable fuel efficient vehicles rule, called the SAFER Rule; 
and the cost-benefit and science transparency policies.
    In my view, I think that I see this as a foreboding of what 
happened in past Administrations. Coming from a State like West 
Virginia, it is a cautionary tale.
    The fate of other rules, like the Affordable Clean Energy 
Rule, and the Navigable Water Protection Rule, which are 
important in all of our States, is something that I am sure we 
will be digging down on in this hearing. So I would like to say 
that it is hard to build back better as the President has said 
if we can't build anything. That is why I think the Executive 
Order 13990, which directs us to revisit the NEPA regulations, 
which we were encouraging to expedite infrastructure delivery, 
I think is also--could be, problematic.
    So I think that the President has taken, he has talked, I 
mean, I was in the Oval Office with him on Monday as we talk a 
lot about bipartisanship and the need to work together. So I 
think that I am concerned about some of the appointments that 
the President has made where they are not in the purview of 
this Committee or any, really, congressional committee or 
congressional oversight. That of course would be Gina McCarthy 
and John Kerry. They have already established themselves as the 
unconfirmed and unaccountable czars on climate, as they made 
that very clear on Wednesday's White House press conference.
    I am concerned that this is shaping up to be a third Obama 
administration. And as I enumerated, and I know I have talked 
with my friend, Senator Carper, about the impacts that that had 
on my State of West Virginia.
    I am concerned about the leadership in the White House, 
with the czars, what kind of impacts will that have on you, 
should you be successful to become the EPA Administrator, what 
kind of impacts that will have on you as you carve your own 
course in conjunction with the Administration.
    I would remind you, and I think I did on the phone call, 
that one of my objections to Ms. McCarthy is the fact that she 
wouldn't, at our invitation and many invitations, come to the 
home States of those Senators where had the most deep economic 
impacts of the Clean Power Plan. It still stings, I will say. I 
am hoping that we can have a different outcome. You and I 
talked about this on the phone.
    So I think as we look at that, and that is a balance, it is 
an achievable balance, but it is a balance. I think that the 
President and you also talk a lot about environmental and 
economic justice. But sometimes I question, where is the 
justice when it is not taken into consideration that many 
people are being plunged into poverty, unemployment, drug 
addiction, and hopelessness by some of the misguided policies.
    So with that, I will turn this over to Senator Carper, who 
is in this particular meeting the Ranking Member. But I look 
forward to discussing this, and I look forward to having our 
two Senators after Senator Carper makes his opening statement.
    Thank you.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    Most people remember January 6th as a day that will live in 
infamy, and the Capitol was stormed and overwhelmed by 
thousands of rioters; people died; in fact, we lost another 
Capitol policeman just this week, very sadly. Another, we are 
remembering another one who sits in state today in the Capitol.
    The thing that I remember also about that day, and you may 
as well, Madam Chair, you may remember when the Senators had 
gathered, it was about noon on the 6th, and the idea was for 
Senators to walk through the Capitol down to the House chamber 
to begin the work of certifying the results from 50 States with 
respect to the election. We usually walk two by two, like 
Noah's ark. I asked Senator Capito if we could just walk 
together, and she graciously said yes, and we did.
    Along the way, we talked. I hope you remember this; I 
certainly do. We talked about a common agenda that we can work 
on together. The idea was that we can have cleaner air, cleaner 
water, address climate change, and create jobs, a lot of 
economic opportunity, including in places like West Virginia, 
my native State. I found it a very encouraging conversation.
    I am also encouraged by the words of Senator Barrasso, a 
good friend and good partner over the last several years on 
this Committee. He has a close friend from Wyoming who ended up 
being Assistant Secretary of the Interior, Rob Wallace.
    Rob Wallace sat right there in our hearing a couple of 
years ago for his confirmation hearing to go to the Department 
of Interior. Some of you may remember when Rob Wallace was 
reminded of the bipartisan nature of this Committee, the way we 
work, whether the Chair is Jim Inhofe or Shelley Capito or Tom 
Carper or John Barrasso, that is the way we have traditionally 
worked.
    That is the way I want to see us continue to work. Rob 
Wallace said these words, I will never forget, I have used them 
hundreds of times since. He said, ``Bipartisan solutions are 
lasting solutions.'' That is what he said, bipartisan solutions 
are lasting solutions. That is true in this Committee, and God 
willing, it will always be true.
    I just want to say a special thanks to two Senators from 
North Carolina; Richard, welcome; Tom, welcome. We are 
delighted that you are both able to be here. It is very good of 
you to come.
    I also want to say, we are gathered here, first of all, 
Melvina, would you raise your hand? I feel like we are on a 
football field here.
    Matthew, would you stand up? Matthew, how are you doing, 
buddy? Welcome, thank you so much, both of you, for being here, 
to be with your husband and be with your dad.
    We are gathered here today to consider the nomination of 
Michael Regan to serve as the Administrator of the 
Environmental Protection Agency. It reminds me a little bit of 
what we used to do in the Navy, we had hail and farewell events 
several times a year, for those who were coming in to join us 
for my squadron or those who were leaving.
    We are welcoming some new folks on our side. I think 
Senator Stabenow and Senator Kelly, Padilla are joining us 
here. We are saying goodbye, though, to Senator Gillibrand, 
Senator Booker, and Senator Van Hollen. And I just learned here 
today we are saying goodbye to our friend John Barrasso, which 
I did not see coming. I am surprised to hear that, and 
disappointed.
    I want to thank John for his leadership over the past 4 
years. It has been a joy working with him and his staff, led by 
Richard. I want to thank Mary Frances over here. She and 
Richard made a good team. We got so much done, so much done, 
very, very proud of what we accomplished by working together.
    I also want to thank you, Madam Chair, and your staff, for 
your assistance in bringing this hearing together today. I want 
to congratulate you on your new leadership positions, both of 
them, one more short term than the other.
    [Laughter.]
    Senator Carper. As we discussed last month on January 6th, 
and as recently as last week, there is a lot of important work 
ahead for our Committee. I very much look forward to working 
together as partners in tackling the challenges facing our 
Nation and our planet.
    With that, I want to warmly welcome our nominee, Mr. Regan, 
and thank him for being here with us today, and also his wife, 
Melvina and his son, Matthew.
    I want to thank your wife and our son not just for them 
being here, I just want to thank you for your willingness to 
share your husband and our dad with our country. This is really 
important work. This is going to help determine what kind of 
planet we live on, and Earth we have, the quality of our life 
in the days to come. So thank you for sharing him, as you have 
already shared him with the people of North Carolina.
    As we know, Mr. Regan and his family hail from the State of 
North Carolina, birthplace of my wife, Martha, who Michael may 
recall is a graduate of Appalachian State University, where her 
dad taught math and physics for 40 years. She sends her very 
best wishes to you and your family on this special day, 
Michael.
    Martha and I had the privilege of meeting Michael about a 
year ago. As I have gotten to know him in time since then, I 
have become convinced that he is the right person to lead the 
Environmental Protection Agency during this critical time in 
our Nation's history. He is a man of deep faith, who believes, 
as I think all of us do, that we have a moral obligation to be 
good stewards of this planet on which we live.
    I believe that Michael Regan is someone who can help unite 
us in a common purpose, as we respond to the climate crisis we 
face as well, as to clean our air, our water, and strive to 
make sure that we don't leave some of our communities and 
neighbors behind in the effort to do so.
    Currently, Mr. Regan serves as the secretary of North 
Carolina's Department of Environmental Quality, a role where he 
has demonstrated over the past 4 years the power of effective 
leadership in improving the quality of the air North 
Carolinians breathe, and their neighboring States as well, and 
the water they drink.
    For proof of this, we need only look at some of his 
accomplishments during his tenure there. They include leading 
the negotiations that resulted in the cleanup of Cape Fear, not 
far from where my wife, Martha, lived and worked when she was 
getting out of college.
    He also negotiated and oversaw what is considered to be the 
largest coal ash cleanup settlement in I think the history of 
the United States. He created North Carolina's first ever 
Environmental Justice and Equity Advisory Board.
    Mr. Regan has been able to do these things and much more by 
bringing people together in common cause while never 
compromising on his principles. Again, the presence of Senators 
Burr and Tillis here bear testimony to that, and again, we 
welcome each of you to this hearing.
    In the Tarheel State, Michael Regan developed a reputation 
as a leader who works with Democrats and with Republicans to 
forge practical solutions, solutions that protect the air we 
breathe, the water we drink, while supporting job creation and 
economic growth. As we struggle to put this current recession 
behind us, that kind of leadership is what need now more than 
ever at EPA.
    It is no secret that the next EPA Administrator has his 
work cut out for him. In addition to addressing the serious 
environmental issues that are affecting Americans, the next EPA 
Administrator will also be tasked, along with the members of 
this Committee, to help him rebuild an agency badly damaged at 
times in recent years by flawed leadership and an agency 
suffering from organizational drift, and for the most part, low 
morale. One of the keys to accomplishing this will be restoring 
scientific integrity as a foundation of policymaking at EPA. 
Michael Regan understands that well.
    The men and women of EPA need to work with purpose and with 
dispatch to address the climate crisis facing our Nation and 
our planet. It is real; the threat it poses to our planet is 
growing worse, not better. The EPA team can do so in part by 
working with the U.S. Department of Transportation, the auto 
industry, and others to restore vehicular greenhouse gas 
emissions standards.
    As you know, we have had some encouraging developments 
there, especially with mobile sources, the auto industry 
reaching out and saying, we want to be part of the solution. I 
am very much encouraged by that, just in the past week.
    The EPA team also needs to implement our new HFC phase down 
law and the Toxic Substance Control Act, both authored by 
members of this Committee. As well as to reverse and replace 
the oil and gas methane rules and begin work on the next phase 
of climate rules for power plants, vehicles, and refineries.
    In addition, EPA needs to ensure cleaner air by 
reestablishing the legal basis for Mercury and Air Toxic 
Standards. And it must better protect human health, as North 
Carolina has already done, by taking action on certain so 
called forever chemicals, such as PFOA and PFAS, that also foul 
the groundwater of States like West Virginia, Delaware, and 
hundreds of other communities across America. Moreover, in 
doing this work, EPA must curb the influence of special 
interests within its scientific advisory bodies.
    Our new President is calling on Americans to Build Back 
Better. To do that, we will need to redouble our efforts to 
address the climate crisis, safeguard our air and our water, as 
well as our other natural resources and ensure environmental 
justice in all of our communities. We must rebuild our 
infrastructure, roads, highways, bridges, water, wastewater, 
access to broadband, those are just some of the parts of our 
infrastructure that need to be rebuilt. They shouldn't be 
partisan issues; they ought to be bipartisan issues. I think 
they will be. Most of those are within the purview of this 
Committee.
    That does not diminish how hard it is going to be; it is 
going to be a challenge. The challenges are daunting. But if we 
do it together, we will succeed.
    I believe that Michael Regan is the partner we need at EPA 
to do these things. He has a good heart and a good mind. He 
knows how to assemble, retain, and inspire a team of talented 
men and women. He has what it takes to help us make progress on 
many fronts as we seek to protect our planet and its 
inhabitants while creating a more nurturing environment for job 
creation and job preservation at the same time. That is why 
President Biden has nominated him for this important position.
    So, Mr. Regan, welcome. Thank you for appearing before us 
this afternoon and for your willingness to serve our Nation as 
we take on some of the most serious challenges in our history. 
We look forward to hearing from you today, and if confirmed, to 
working with you and those you will lead in the years to come.
    Before I turn it over to Senator Capito, let me close with 
these words of Albert Einstein. Albert Einstein used to say, 
``In adversity lies opportunity.'' Think about that. In 
adversity lies opportunity. There is no doubt that we face 
plenty of adversity in this country and on this planet as we 
gather here today, but along with that adversity comes 
extraordinary opportunities to do great things for the people 
whom we are privileged to represent, along with our neighbors, 
whether those neighbors live on the other side of the street, 
on the other side of town, or on the other side of the world.
    Again, thank you all for giving me a chance to serve with 
you. I am thrilled that we are here for this day. Thank you 
all.
    Senator Capito. Thank you, Senator Carper. Thank you for 
the kind words, and I certainly look forward to our serving 
together at the helm of this Committee.
    Now, I am very honored to have both home State senators 
here from North Carolina, and I would like to recognize Senator 
Burr for an introduction of our nominee.

                STATEMENT OF HON. RICHARD BURR, 
         U.S. SENATOR FROM THE STATE OF NORTH CAROLINA

    Senator Burr. Madam Chairman, thank you very much.
    Chairman soon to be, thank you. I didn't think we would 
make history today at this hearing, but I think this probably 
will be the shortest chairmanship in the history of the U.S. 
Senate.
    [Laughter.]
    Senator Burr. And Senator Tillis and I were talking, where 
you have the witnesses positioned in the room, this is sort of 
like looking at Russia from Alaska. I am sorry Senator Sullivan 
left. It is hard to see all that way.
    I appreciate the opportunity to come before the Committee 
today to introduce Secretary Michael Regan as you consider his 
nomination to be Administrator of the Environmental Protection 
Agency. It is always a pleasure to introduce someone from your 
own State, especially one with whom I have had the opportunity 
and the pleasure of working and who is extremely, extremely 
qualified for this position.
    Secretary Regan is a proud North Carolinian, born and 
raised in Goldsboro, North Carolina, by his parents, Zeb and 
Mavis, along with his brother and sister. Both of his parents 
were public servants, with his mother working as a nurse for 
over 30 years, and his father served in Vietnam and continued 
to serve in North Carolina in the National Guard until his 
retirement as a colonel. It is clear that his parents instilled 
not only the values of public service, but also a love affair 
with the outdoors, including hunting and fishing. That 
continues to this day. I could say a passion we both share.
    While attending North Carolina A&T, Michael met his 
beautiful wife, Melvina. Melvina is likely the real star of the 
family, having graduated from North Carolina A&T along with a 
master's from Radford University. She currently works in the 
Research Triangle Park. She has managed all of that while also 
raising their son, Matthew.
    Michael, after graduating from North Carolina A&T, where we 
share in common a very good friend in the chancellor, Harold 
Martin, with a degree in environmental science, Michael began 
an internship with the EPA at the Research Triangle Park 
campus. This was only a start, because he stayed with the EPA 
for over 9 years, working in various offices and gaining policy 
experience while also completing a master's in public 
administration from George Washington University.
    Following his initial tenure with the EPA, he served as 
associate vice president for clean energy and southeastern 
regional director for the Environmental Defense Fund. With his 
stellar resume, Mr. Regan was tapped by Governor Cooper in 2017 
to serve as the Secretary of the North Carolina Environment and 
Quality. As the Committee evaluates his nomination, I believe 
his tenure in North Carolina can tell many of you much about 
how he will approach our shared desire for clean air and water 
with the need to ensure we do not unnecessarily limit economic 
opportunities.
    North Carolina is blessed by beautiful coastlines and 
mountains as well as some of the most fertile agricultural 
lands in this country. As Secretary of the State's Department 
of Environmental Quality, Secretary Regan was able to find the 
right balance by reaching out to stakeholders and ensuring that 
the Department's relationship with rural communities, whose 
lifeblood is agriculture, was constructive and not adversarial.
    To underscore this, Secretary Regan's nomination is 
supported by over 20 of the largest agricultural organizations 
in the country. These organizations and their State 
associations understand that they are not always going to agree 
with every decision handed down by the EPA. But they know and 
trust they will receive a fair hearing.
    It is my belief that Secretary Regan will bring the same 
qualities, experiences, and values of environmental stewardship 
while balancing the needs of rural communities to this new role 
as Administrator. On top of that, let me say this. Michael is a 
good man. He is a good husband. He is a great father. I look 
forward to supporting his nomination on the floor.
    I thank the Chair.
    Senator Capito. Thank you, Senator Burr.
    Senator Tillis, would you like to join in that rousing 
introduction?

                STATEMENT OF HON. THOM TILLIS, 
         U.S. SENATOR FROM THE STATE OF NORTH CAROLINA

    Senator Tillis. Madam Chair, for the moment, and incoming 
Chair in a matter of moments, thank you for letting me be here 
with my friend and colleague, Senator Burr, to introduce 
Michael Regan.
    I am not going to cover some of the ground that Senator 
Burr did so well, except to say that Secretary Regan is 
somebody that I have tracked. I have a history in North 
Carolina, I was speaker of the house down there. We took up 
some of the thorny issues of coal ash, and passed legislation 
back when I was speaker of the house. So I got to see some of 
that come to life in a Republican administration, and then 
continue to grow in a Democratic administration under Governor 
Cooper.
    I will tell you that in the time after his nomination was 
put forth, I have spent a lot of time talking to people in 
North Carolina, people in the agriculture sector, people in the 
energy sector. And what they all said to a person is that 
Michael distinguished himself as somebody who listens and 
someone to try to take in the input from both sides and come up 
with a fair outcome. And that is why I believe that he does 
have the support of over 23 national leading organizations, not 
only in agriculture, but in the business community.
    We have to understand that the election produced a 
different leader down in the White House. We can't imagine as 
Republicans that we are necessarily going to have a President 
with the same priorities as ours, but what we can hope for are 
people in the Administration who have a track record of 
listening and trying to come up with a sustainable outcome, as 
Ranking Member Carper said, trying to produce something that 
has enduring value. I believe that Michael will go to the EPA, 
he will be fair, he will listen.
    He will sometimes take on initiatives that I will disagree 
with, most likely vote against. But I do believe that he will 
be somebody that we can rely on to be fair with the reality of 
the change and the transition.
    So I want to thank him for being here today. I want to 
thank him for his years of service and thank him in advance for 
the tough job that he is about to take on.
    I also want to welcome Melvina and Matthew. Matthew, if 
this hearing goes long, I am right across the hallway, so you 
can come visit with me. I'll bring you a goodie bag over here 
with some North Carolina treats while you are waiting here.
    But I really hope that you all will listen to him today, 
ask him the tough questions that we should ask, the things that 
we as Republican members are concerned with. But at the end of 
the day, I think we have a great, well qualified nominee before 
us. I encourage your support.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    I thank both of you, and thank you for reminding everybody 
that this is going to be the shortest Chairmanship on record. I 
appreciate that.
    [Laughter.]
    Senator Capito. I would like to introduce our nominee to 
the Committee.
    If you would like to change places, we will wait a few 
minutes, Mr. Regan.
    Thank you.
    I would like to, as I said, bring Michael Regan, nominated 
to be the Administrator of the Environmental Protection Agency, 
which he is ready to testify. I want to remind you that your 
full written statement will be made a part of the record. I 
look forward to hearing your testimony.
    But before you begin, I am sure you would like to do this, 
and I look forward to this, would you like to introduce your 
family or anyone else that is with you today?

STATEMENT OF MICHAEL S. REGAN, NOMINATED TO BE ADMINISTRATOR OF 
              THE ENVIRONMENTAL PROTECTION AGENCY

    Mr. Regan. Thank you, Madam Chairwoman.
    I think they have been introduced adequately, but I would 
like to say that I do have my beautiful wife, Melvina, with me 
today, and my son, Matthew. I am extremely grateful to have 
both of them.
    Senator Capito. And I am sure you have a lot of family and 
friends who are tuning in right now, too. I am sure they extend 
their best wishes to you.
    So if you want to go ahead, proceed with your testimony, we 
are all ears.
    Mr. Regan. Thank you, Madam Chairwoman Capito and Ranking 
Member Carper, and members of this Committee.
    I am grateful for your time this afternoon and our shared 
commitment to protecting our environment, our communities, and 
our economy. I have dedicated my career to public service, and 
I appreciate the opportunity to highlight my qualifications and 
my passion for environmental stewardship, public health, and 
economic prosperity.
    I want to thank Senator Burr and Senator Tillis for their 
kind words and very strong introduction. I want to thank 
President Biden for nominating me and trusting me to lead this 
important agency during this vital time in our Nation's 
history.
    Again, I want to especially thank my wonderful and 
beautiful wife, Melvina, whom I am blessed to have as a partner 
in life, as we navigate life together, my son Matthew, who I am 
extremely proud of, and consider it a privilege to be his dad. 
Together, we prayed as a family before I accepted this 
nomination, and we are so proud to take on this assignment. I 
am grateful for their support.
    For the last 4 years, I have proudly served as the 
Secretary of the North Carolina Department of Environmental 
Quality, working to provide all North Carolinians with cleaner 
air and cleaner water while nurturing our State's economy. I 
fell in love with the outdoors growing up in eastern North 
Carolina, hunting and fishing with my father and grandfather. 
Those beautiful waters and those lands are legacies that they 
were proud to share with me.
    But they also taught me that protecting them was my 
responsibility as well. Like millions of Americans living in 
rural communities, preserving our natural resources isn't 
something just to balance with the economy. It is essential for 
economic growth, along with protecting public health and our 
way of life.
    Careful stewardship of the environment is more than just 
passing down traditions to the next generation. It is about 
learning from the past and being prepared to combat the 
challenges that our future generations will face.
    Both of my parents were dedicated public servants. My 
mother, a nurse for close to 30 years, the best nurse in Wayne 
County. My father served his country in Vietnam, worked for the 
North Carolina Agricultural Extension Service for years, and 
ultimately retired as a colonel with the North Carolina 
National Guard.
    So obviously, after graduating from North Carolina 
Agriculture and Technical State University with a degree in 
environmental science, I knew I wanted to find a way to serve. 
That led to my first summer internship at EPA. I spent nearly 
10 years at EPA under Presidents of both parties. It is an 
honor of a lifetime to be invited back.
    Throughout my career, I have learned, if you want to 
address complex challenges, you must be able to see them from 
all sides, and you must be willing to put yourself in other 
people's shoes. The best way to do that is by convening 
stakeholders where they live, where they work, and where they 
serve, fostering an open dialogue rooted in the respect for 
science, a clear understanding of the law, and a commitment to 
building consensus with pragmatic solutions.
    I have also learned that we can't simply regulate our way 
out of every problem we face. This approach has proven to be 
effective in my tenure as Secretary of DEQ. We have tackled the 
adverse impacts of hog farms, cleaned up toxic PFAS pollution 
in our rivers, and reached the largest coal ash settlement in 
U.S. history.
    I will never forget looking into the eyes of Amy Brown, the 
mother of two boys, as she told me she had not let her sons 
play in the bathtub or in the pool in the back yard for years, 
because they were required to live on bottled water after the 
Dan River coal ash spill.
    That night, as I gave my son Matthew his bath, with fresh 
tap water, I vowed that this story would have a happier ending 
for Amy Brown and her two sons. And we did just that; by 
following the science, following the law, bringing industries 
together with the impacted communities, not as adversaries, but 
as stakeholders working together for real solutions.
    In North Carolina, we are moving beyond the old argument 
that we have to pit creating jobs against protecting the 
environment. We have demonstrated that you can do that from the 
North Carolina mountains to the Old North State's coast.
    President Biden has said, confronting climate change 
presents an unprecedented economic and jobs opportunity. In 
North Carolina, we have seized that opportunity, partnered with 
private sectors to provide opportunities and regulatory 
certainty, and harnessing our strength in manufacturing, 
innovation, and research, which has resulted in the creation of 
tens of thousands of new jobs in North Carolina.
    If confirmed, I will work with the entire Administration to 
build and strengthen that partnership, to power America's 
economy with cleaner energy and create millions of good paying 
middle class jobs. Our priorities for the environment are 
clear: We will restore the role of science and transparency at 
EPA. We will support the dedicated and talented career 
officials.
    We will move with a sense of urgency on climate change, and 
we will stand up for environmental justice and equity. We will 
do that in a collaborative manner, in partnership with State 
and local governments, who know their own communities better 
than the Federal Government ever could.
    We will work transparently and responsibly with industries 
eager to establish clear, consistent rules of engagement. And 
we will engage working Americans whose voices have been absent 
from these conversations about our environment for far too 
long.
    Last but not least, we will work to do this in partnership 
with Congress, leveraging your expertise and concerns for your 
constituents as we build healthier communities through 
environmental stewardship and economic growth.
    We all have a stake in the health of our environment, the 
strength of our economy, the well being of our communities, and 
the legacy that we will leave the next generation in the form 
of the Nation's natural resources. While those values may not 
unite us on every single policy question, I think it is a solid 
foundation for a successful partnership.
    I look forward to building on that foundation with you if 
confirmed, and I look forward to answering any questions that 
you might have for me today.
    Thank you.
    [The prepared statement of Mr. Regan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    Senator Capito. Thank you, Secretary Regan. I appreciate 
that.
    I have some little business items before we get to the 
questioning. The hearing will include two 5 minute rounds of 
questions. I will start the second round after closing the 
first.
    To be fair to the other members of the Committee and the 
witness, I ask Senators to please limit your questions each 
round to the 5 minutes.
    Throughout this hearing and with the questions for the 
record, our Committee members will have an opportunity to learn 
more about you, Mr. Regan. I would ask that throughout this 
hearing, you please respond to the questions today, and for 
those that we will submit for the record.
    So these are the questions that I have to ask, and we ask 
of all nominees on behalf of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee, and other appropriate 
committees of the Congress, and provide information subject to 
appropriate and necessary security protection, with respect to 
your responsibilities?
    Mr. Regan. I do.
    Senator Capito. Do you agree to ensure the testimony, 
briefings, documents, electronic, and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely fashion?
    Mr. Regan. Yes, I do.
    Senator Capito. Do you know of any matters which you may or 
may not have disclosed that might place you in a conflict of 
interest if you are confirmed?
    Mr. Regan. I do not.
    Senator Capito. Thank you. Thank you very much.
    With that, I will start with the 5 minute questioning.
    First of all, thank you for your opening statement. Your 
pledge of transparency is something that I think we are going 
to hear a lot about today, and probably in every 
Administration. This one certainly is no different.
    So I am going to begin where you and I talked on the phone 
and where I alluded to in my opening statements. That is the 
fact of having a domestic climate czar in the White House who 
was a former Administrator of the EPA, who really doesn't have 
any accountability to Congress or to any of those of us for 
oversight. Apparently, her authority is very sweeping. And she 
stated that every single piece of the Federal budget will 
reflect climate change policy. Her remark demonstrates there is 
no part of the Government within her reach.
    So have you met Gina McCarthy?
    Mr. Regan. Yes, I have.
    Senator Capito. You have. Have you talked about the two 
roles that you would be fulfilling are going to interplay and 
how that decisionmaking is going to roll out?
    Mr. Regan. Yes, we have.
    Senator Capito. What was the substance of that?
    Mr. Regan. I think the substance of it was recognizing that 
with the President's ambitious goals, that there was an all 
hands on deck approach, and that he would have staff in the 
White House that would have responsibilities and participating 
in climate policy, and that that task would also be before 
every single Cabinet agency.
    So I think the crux of that conversation was recognizing 
that Congress has bestowed certain powers upon me as 
Administrator, as well as certain accountabilities. So I look 
forward to working with the President's staff, but I also look 
forward to working with every other Cabinet agency as we 
develop a comprehensive pathway to reach the President's 
ambitious climate goals.
    Senator Capito. Did you get a sense in the conversation 
with her that you would be reporting directly to her or to the 
President, or a little bit of both?
    Mr. Regan. I think it is pretty clear that this position 
reports to the President. This position will be working with 
the staff in the White House. And of course, this position will 
be working with all of the Cabinet agencies required for this 
whole of Government approach.
    Senator Capito. What about if there is a disagreement 
between the climate czar and the Administrator of the EPA? I 
would hope that the transparency pledge would follow through on 
that, if you reach decisions, who is making that decision and 
how it was determined. How would you see disagreements being 
resolved when it is not inter-Cabinets, but with a czar and a 
member of the President's Cabinet?
    Mr. Regan. With every complex issue, we anticipate healthy 
debates. I believe that the realities are we have different 
positions that we serve in the Administration.
    So I have no reason to believe that the positions of the 
EPA and the positions of the White House staff will get equal 
hearings. Hopefully, we will have robust discussions in a 
manner that will yield the best results for the President to 
achieve this ambitious climate goal.
    Senator Capito. Well, yes, we certainly all want best 
results. That is in all of our best interests, as you 
emphasized in your opening statement.
    I would like to ask you, one of the objections that I have 
had over the past is that when really difficult issues come in 
front of the EPA that could result, as we saw during the Obama 
administration, drastic job losses and a lot of economic 
downturn in a particular area, that you would, and you and your 
agency would come, and come to where the biggest impacts are 
going to be, to the people that--this was not done in the past. 
As I said, it still stings. It is not right.
    I know you have a history of this in North Carolina. If you 
could pledge to me that you will continue that as an 
Administrator, that would be good news for us.
    Mr. Regan. Absolutely. In North Carolina, I realized very 
quickly that we could not solve the State's problems by sitting 
behind a desk in Raleigh. I visited 90 out of our 100 counties 
in the State of North Carolina. Would have hit all 100 but for 
COVID. I think I have pledged to you, many of you, that I have 
spoken with, that I do plan to respond to the invitation to 
visit, to spend time in your States, with your communities, so 
that we can have the best understanding of how the decisions we 
make will impact you all on the ground.
    Senator Capito. Is it your understanding that the President 
intends to come back with a new version of the Clean Power 
Plan?
    Mr. Regan. It is my understanding that we have to take a 
look at what was the plans for the Clean Power Plan and what 
were the plans for the ACE rule. The reality is that it 
presents a significant opportunity for the Environmental 
Protection Agency to take a clean slate and look at how do we 
best move forward. There are lots and lots of, I would say, 
examples of success and failure that we have seen in past 
tries.
    So I look forward to having an opportunity to do a few 
things. No. 1, to not look backward, but to look forward. No. 
2, to convene all parties relevant to this discussion and think 
about how we harness the power and the statutory authority of 
the Clean Air Act in concert with major investments that we 
should see governmentwide, and the input and the statements 
from those who will be impacted by any particular actions we 
take, whether that be a rulemaking or whether that be 
voluntary.
    Senator Capito. Thank you. That ends my 5 minutes. I would 
say, I would be interested in maybe a follow up question on 
whether you think that means that we would go beyond the fence 
or not. That is a more difficult question.
    Senator Carper.
    Senator Carper. Madam Chair, if it is OK with you, I am 
going to yield to other colleagues. I am not in a hurry. 
Thanks.
    Senator Capito. Senator Inhofe.
    Senator Inhofe. Well, first of all, thank you very much. I 
have had the honor to visit with Michael Regan and have heard 
all kinds of good things about him. I think we are going to get 
along real well.
    I told him during our introductory discussion how well I 
got along with particularly Lisa Jackson, when she was in the 
Obama administration. In fact, she liked me so well, and I 
liked her so well, that we spent a lot of time together. She 
even still today has my Christmas card picture of my kids on 
her wall. So we want to have that kind of relationship with 
you, and I think that is going to happen.
    I have four things I just want to mention. There won't be 
time to cover them, so I won't be asking for a lot in specific 
responses. One is on the Green New Deal. I hear all kinds of 
extreme interpretations as to what does that mean, things like 
banning fossil fuels, banning air travel, controlling how much 
beef we can eat, and all these things. And the cost would be 
about $93 trillion, that I believe is accurate.
    But the other thing that affects me parochially is it is 
war on fossil fuels. That was behind us, I thought for a while. 
It looks like it may be coming back. So what I would like to 
ask of you, Michael, is that you sit down with me and other 
members of this Committee and talk over the different aspects 
of what is alleged to be the Green New Deal and what it really 
is going to mean in terms of putting it together.
    I agree with Senator Tillis that you are someone who 
listens, and you want to be fair. I think that would be a fair 
thing to do. What do you think?
    Mr. Regan. I can pledge to you that I will move forward the 
way I have in North Carolina, which is using the power to 
convene, to bring everyone to the table.
    I would like to say that President Biden has his own 
ambitious climate plan, one that we believe harnesses the full 
power of Government, but not only looks at regulations that 
will come from EPA, but investment strategies that come from 
the broader Government. So I look forward to engaging with you 
and your colleagues on how we execute on the President's vision 
for an ambitious climate goal.
    Senator Inhofe. That is very fair. Now, the second of the 
four things I wanted to bring up have to do with the WOTUS 
bill. Back during the Obama administration, they had the WOTUS 
bill, and it was essentially, for those who might be new on 
this Committee, and not familiar with what the meant, it is the 
water regulation that would be transferred from the States to 
the Federal Government; it is something that the American Farm 
Bureau and all the agricultural organizations had done as its 
major concern at that time.
    Then along came President Trump and changed that, added a 
new rule that I thought was working quite well. My question on 
that one would be, can we have a chance to talk about that? 
Because that issue is going to be the one, and politically, I 
have to say this too, it is one that everyone ought to be 
concerned about, because that is the No. 1 issue in accordance 
with most.
    The third thing I want to bring up is on pipelines. I 
noticed that you approved a permit for the Atlantic Coast 
Pipeline. You denied a permit for the Mountain Valley Pipeline. 
Maybe for the record, in writing, you can come back and 
distinguish between the two of them and what your feelings are 
about pipelines.
    And last, I wanted to mention the Small Refinery 
Exemptions. Now, in my State of Oklahoma, the Clean Air Act 
exempts small refineries faced with ``disproportionate economic 
hardship from the costly renewable fuel standards.'' The action 
I would like to ask for you would be, the U.S. Supreme Court 
has already taken up the case of HollyFrontier v. the EPA, 
which would seem logical to me that before establishing any 
real policies concerning small refinery exemptions, it might be 
a good idea to get the response from the U.S. Supreme Court on 
that case. What do you think?
    Mr. Regan. I think that is one way to go. The one thing I 
know I have to do is consult with our general counsel, 
understand where we are in the legal process. And also 
understand, what options do we have to continue conversations. 
I think that the courts will give us some ruling.
    But I also don't want to lose the opportunity to take a 
look at what we have learned with the Obama era Waters of the 
U.S. and the Trump era Waters of the U.S. As a State secretary, 
I have been on the receiving end of both. I have had 
conversations with farmers about both. And I think that we do 
have a clear opportunity to look at how we protect our water 
quality while not overburdening our small farmers.
    So while we are looking at all of our opportunities through 
the legal system, I don't want litigation to stifle what we can 
come up with as stakeholders having a conversation. So I look 
forward to working with you on that.
    Senator Inhofe. I look forward to it. Thank you.
    Mr. Regan. Thank you.
    Senator Capito. Senator Carper.
    Senator Carper. I will yield.
    Senator Capito. All right, Senator Cramer.
    Senator Cramer. Thank you, Madam Chair.
    Thank you, Mr. Regan, for being willing to run the gauntlet 
and step up in this way. Congratulations to you, 
congratulations to your family. It is great that you can be 
here. It means a lot to him and it means a lot to us as well. 
So thank you for that.
    I appreciate very much the time you took with me on the 
phone. I appreciate very much your reference to stakeholders 
often. That is a good sign. When we talked a few weeks ago, as 
you recall, I was a fellow regulator, I spent nearly 10 years 
as an environmental regulator before coming to Congress in an 
elected position.
    In the nomination acceptance speech, while today you have 
referenced stakeholders you also referenced the importance of 
States. Of course, being a former State regulator, you would do 
that. You reiterated your desire to support States, and not 
dictate to them. And of course, States are some of the most 
important stakeholders in this new job.
    I welcome that, because I spend a lot of time talking about 
cooperative federalism around here, the lack of it over the 
decades and centuries, in many cases. I am just wondering, to 
this point, and I know it is early in the Administration, but I 
haven't seen a lot of cooperation coming from the White House. 
I have seen a lot of executive orders. We have seen a lot of 
dictates. In fact, things like the lease prohibitions on 
deposits on Federal lands, in the case of the XL pipeline, 
those aren't directly under EPA jurisdiction.
    But none of the States affected were ever consulted before 
the President signed those executive orders. I want to hear 
from you how you will be different than what we are seeing so 
far.
    Mr. Regan. Thank you for that question, Senator. I too 
enjoyed the conversations that you and I had about the balance 
of State and Federal Government interaction.
    I see the executive orders as setting goals, and setting 
vision. But in those executive orders, they leave plenty of 
room for how these things will be implemented. The reality is 
that these Cabinet agencies will be implementing and executing 
these visions.
    So we have a ton of time, in my opinion, to aim for these 
goals, but massage the processes by which we will achieve those 
goals. I want to do what I have done in North Carolina, and 
done, I believe, fairly well, which is convene the stakeholders 
that will be impacted by these decisions, look at the 
rulemaking processes, look at the voluntary actions, harness 
the power of our private sector who are creating these jobs, 
and following the trends of the market to think through, what 
are the proper actions we can take collectively to meet and 
possibly exceed the goals of these executive orders.
    So I think the substance and the crux of how we execute on 
these executive orders rely or reside in these Cabinet 
agencies. I look forward to having conversations with you, your 
staff, and others on how we get there.
    Senator Cramer. I appreciate that. I think we are going to 
have a lot of good discussions, quite honestly. I am grateful 
for your sentiments.
    I was thinking specifically in a later round or maybe even 
over coffee sometime we will talk more about things like the 
methane rule, for example, that tends to--the one size fits all 
methane rule tends to disqualify States that already have 
methane rules. It is an important, I think, area of some 
exploration. It is a specific case study.
    There are a lot of those, we have heard already, we have 
talked some already about Waters of the U.S., Clean Power Plan. 
And as you know from your previous experience at EPA, both 
these rules under the Obama administration faced serious legal 
hurdles. In North Dakota, I had one of the most successful 
WOTUS challenges with 11 other States in litigation, and joined 
West Virginia in its Clean Power Plan case.
    Based on your reviews of those cases, obviously you know 
them well, do you think that the rules had some shortcomings, 
and if so, what were they?
    Mr. Regan. One of the things I have always pledged is I 
would follow the science and follow the law. The courts have 
obviously had their opinions about these laws.
    I will say, there are two ways I look at this. As a former 
State regulatory, the lack of certainty and the litigation has 
been very painful for us who are trying to get the business of 
our States done. So that is the downside. The upside is, as 
Administrator, I have the ability to look back at what we have 
learned, and what worked, and what didn't. We can apply those 
lessons learned to how we are going to move forward.
    So I am grateful that we have sort of worked out some of 
those kinks, and we understand where the limits of the law are. 
It is my desire to follow the law, not exceed my statutory 
authority. I believe with the proper stakeholder engagement, I 
think that we can forge a path forward. I look forward to that.
    Senator Cramer. I look forward to continuing the discussion 
in round two. Thank you.
    Senator Capito. Thank you, Senator Cramer.
    Remotely, Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Mr. Regan, I enjoyed our conversation that we had. I want 
to follow up on my favorite subject, which is the Chesapeake 
Bay. As I had a chance to talk to you about the Chesapeake Bay, 
it is the largest estuary in our hemisphere. It has been 
declared a national treasure by the last several 
Administrations. And it is challenged in regard to 
environmental need.
    Under the Obama administration, we had a special assistant 
for the Chesapeake Bay that was referred to as the Chesapeake 
Bay czar, that acted as a point person to deal with 
administering the Federal program under the EPA for the 
Chesapeake Bay, a program which has been funded by Congress and 
increased the authorization and funding in the last couple of 
Congresses. So we have been supporting this.
    But having a special assistant that can coordinate not just 
the activities within the Environmental Protection Agency, but 
the other Federal agencies that play such a critical role in 
our plan to restore the quality of the Chesapeake Bay, the 
Department of Agriculture, the Army Corps of Engineers, and 
I've talked about some of the other programs that are involved.
    So I would like to get your cooperation on how you will 
administer the Chesapeake Bay program, considering reinstating 
the special assistant, so that we can have a focal point in EPA 
working with the other agencies to advance the Chesapeake Bay 
program, a program that is supported by six States and many 
stakeholders, and which the Federal Government really operates 
as an independent referee in regard to our efforts to deal with 
the Chesapeake Bay. Can we work together on this, and will you 
consider appointing a special assistant?
    Mr. Regan. I thank you for that question, Senator Cardin. 
During my first stint at EPA, when I lived in this area for 
about 10 years, I learned first hand that the Chesapeake Bay is 
indeed a national treasure. So you do have my commitment that 
we will look for the resources, all the resources that we can 
bring to bear, to protect the Chesapeake Bay.
    Senator Cardin. Thank you for that. I hope that you will 
appoint a special assistant, because I think that is critically 
important in coordinating this.
    I will just give you a couple examples. We have recently, 
about ready to complete our environmental restoration project 
that deals with disposal of dredged material at Poplar Island, 
which has been a win-win situation. It has received the 
dredging material as well as restoring a previously livable 
island, it has now been restored as an environmental project. 
We need to move forward with the second of these plans, Mid 
Bay, the Army Corps has given a green light for that and we are 
going to be moving ahead with it.
    My point is this. That part of the Chesapeake Bay program 
that needs to be coordinated with the Environmental Protection 
Agency. We have oyster restoration, as I am sure you are aware. 
The oysters are critically important to filtering the 
pollutants out of the Bay. The historic crop on the Chesapeake 
Bay is a fraction of what it was 100 year ago. So we have had a 
very active oyster restoration program in both Virginia and 
Maryland.
    Funding comes from various agencies. But it is important 
that the EPA act and help us in making sure all the pieces come 
together, so that we can meet our commitment under the 2025 
deadline.
    So are you prepared to advocate on behalf of the 
Environmental Protection Agency with other agencies in order so 
we can achieve our goals under the Chesapeake Bay program?
    Mr. Regan. Thank you, Senator. I am. I am committed to 
advocating so that we meet those goals. I am committed to 
looking at how we have adequate resources to achieve those 
goals.
    I can tell you what I am actually doing now. I have been 
successful in prioritizing an agricultural czar or advisor, an 
environmental justice advisor. And I am now looking into our 
resources for the potential for someone to coordinate on the 
Chesapeake Bay. The previous Administration and budget process 
has not been kind to EPA. So we are being creative as to where 
we can get the resources to do that.
    What I can assure you is, we have adequate resources to 
execute on our obligation to protect the Chesapeake Bay, and we 
are looking for additional resources to hire that coordinator 
to ensure that we hit all of our targets on time.
    Senator Cardin. I think I might want to flip on ahead, that 
is what I wanted to hear.
    I will just mention one last thing in closing, that is that 
with plans, that we do need you to be aggressive in making sure 
all States carry out their commitments. We depend upon each 
State carrying its own load. We have had some challenges with 
some of our States.
    We hope that you will be aggressive in working with us. It 
is a ground up program. But we do need the Federal Government 
to come in where needed to make sure that we all do what we can 
with best science.
    So thank you very much, and thank you for your willingness 
to serve in this critically important position.
    Mr. Regan. Thank you, sir.
    Senator Capito. Thank you, Senator.
    I am going to go to Senate Whitehouse now, and then we will 
get back to one Republican, one Democrat. I kind of got us a 
little bit out of order there.
    Senator Whitehouse, are you on?
    Senator Whitehouse. Yes, I am.
    Senator Capito. Thanks.
    Senator Whitehouse. Thank you, Chairman Capito. I 
appreciate it.
    Secretary Regan, welcome to the EPW Committee, not for your 
last time, I hope.
    A couple of things. First of all, please be advised that 
the Chesapeake Bay is not the only bay on the East Coast. There 
is a little State called Delaware that we might have some 
interest in that has a Delaware Bay. Those of us from further 
north are very excited about the clean, clear waters of 
sparkling Narragansett Bay. So I appreciate your interest in 
the Chesapeake, but let's make sure we think of all the bays.
    You mentioned earlier on in the hearing that it would be 
your policy, don't look backward. I just want to warn you about 
that. You would be coming into an agency that in my view was 
more or less captured by the fossil fuel industry, agency 
capture, administrative capture, is something people have 
talked about for years. I think this is a particularly flagrant 
example that we witnessed of agency capture.
    I think it left a trail of damage to the institution. It 
left a trail of conflicts of interest, particularly on the 
scientific advisory groups. It left a trail of rulemaking 
thrown out for pretty patent violations of administrative law. 
It left a trail of FOIA failures and QFRs unanswered.
    I suspect you will find a good deal more when you get in, 
as people come forward and are prepared to describe things that 
took place in the previous Administration and maybe even some 
who couldn't bear it and left might very well come back with 
some stories.
    I think if you are the captain of a ship that has sustained 
some serious damage, you can't just look forward. You have to 
look at the ship. And you have to make sure that you have done 
a damage control assessment and know where the damage is and 
have a plan to repair it. Otherwise, you are never going to 
perform at the levels that you should. And your operating folks 
are not going to be able to focus on moving forward, because 
they will be all tangled up in trying to undo the messes that 
you haven't paid attention to.
    So I am interested, if you could explain a little bit more, 
what you meant by don't look backward.
    Mr. Regan. Thank you for that question, Senator. I think 
that is sort of a metaphor for visioning. I think that we have 
to be optimistic and look forward in terms of all that we 
believe we can accomplish, and that the future is bright.
    Obviously you raise a really good point, a point that I 
have practical experience in. When I inherited the Department 
of Environmental Quality in 2017, morale was low, decisions had 
been made that we didn't believe were transparent and didn't 
bring forth the proper science and data.
    So we did have to do a damage assessment. We had to take a 
look at what had been done, what had not been done. And we 
quickly had to rectify those situations and begin to move 
forward.
    We have a short amount of time. So we are going to have to 
walk and chew gum at the same time. My goal is to do an 
assessment to determine how can we best move forward, learn 
from the past, but stay leaning forward as we solve some of 
these complex issues. There are a lot of staff at EPA right now 
doing a reevaluation of a ton of rules and activities that may 
or may not have been done in a transparent manner or leveraged 
science the way we have liked.
    So we are going to correct that. We are going to correct 
that, then we are going to begin to carry this country forward.
    Senator Whitehouse. Well, I am going to ask you two things 
in that context. One is, I have written quite a lot about the 
problems at EPA. I will find, with my team, one of the either 
comments or briefs that I have written, and I will just send 
one to you so that you have a sense of where I have seen this 
agency go. I would ask that you read it before our vote, just 
so that I can know you have seen how I feel about this.
    The second thing is that I will be coming at you, as will 
other Senators, with questions. We would really like to see the 
questions answered. Where we have been stonewalled on questions 
in the prior Administration, we would like that backlog of 
questions cleared. On FOIAs that have been stonewalled, we 
would like that backlog cleared as well. I think if you are 
talking about transparency, you are going to have to make a 
particular effort to tear down the stone wall that surrounded 
the fossil fuel fortress at EPA in the last 4 years.
    I hope very much you will agree to read the thing that I 
send you and be as cooperative as the law permits in answering 
our questions, particularly our backed up questions.
    Mr. Regan. Absolutely, Senator. Thank you for that 
question. You have my commitment that, No. 1, myself and our 
staff will read all documents sent to us by this body. No. 2, 
it is an obligation of all of us as public servants to be as 
transparent as possible to this body and to the public as we 
look at information and develop decisions for moving forward.
    So you have my commitment to read those materials. You have 
my commitment for transparency. And you have my commitment as a 
very strong partner in how we move forward.
    Senator Whitehouse. Last thing, the Clean Power Plan 
proposal by the Obama EPA has been thrown out by the court. 
You, as you have said, now have a clean slate to go forward. I 
am hoping that as you look at the problem of large scale 
emitters, whether they are industrial emitters or utility 
emitters, you will take a look at carbon capture technology, 
which has moved enormously forward in the years since the 
original Obama Clean Power Plan.
    I would note for you that Chair Capito and I, who have 
rather different views about climate issues and fossil fuel 
emissions and so forth, have worked together along with a lot 
of other colleagues in a very bipartisan support for carbon 
capture technologies, including an expansion of 45Q in the last 
bill that we passed in bipartisan fashion in the last Congress.
    So I am hoping that you will take a hard look and make sure 
that people on your staff have the technical support necessary 
to understand whether carbon capture is a best available 
control technology for carbon emissions, which are a pollutant 
under the Clean Air Act. As long as you have people looking at 
that and giving it a fair and honest look, that is all I ask 
right now.
    Mr. Regan. Thank you for that question, Senator. You have 
my commitment to look and determine the commercial viability of 
carbon capture sequestration. I can tell you that I have 
already had conversations with Jennifer Granholm at DOE and 
others.
    There are lots of resources that we can pour, in terms of 
research and development, to make sure that carbon capture 
sequestration and storage is on the table. And one of the 
benefits we have of starting fresh is over the past couple of 
years, we have seen enormous strides in technological 
advancements. The good people at EPA are ready to take 
advantage of what we have learned from the past rules and what 
we have gained in terms of technological advancements.
    So we are excited about charting this new course.
    Senator Whitehouse. Thank you, Senator Capito. I am 
probably out of time.
    Senator Capito. You are probably out of time, by a lot.
    [Laughter.]
    Senator Capito. Thanks.
    Senator Braun.
    Senator Braun. Thank you, Madam Chair.
    I share that same enthusiasm as Senator Whitehouse, and 
have a tendency maybe to go a little over time myself now and 
then. But I will try to keep it within the 5 minutes.
    I enjoyed our robust conversation we had last week. It was 
a lot of common ground in terms of especially being open minded 
in terms of how we view such an important issue as the 
environment and climate in general.
    I am the founder of the Senate Climate Caucus on the 
Republican side, and we now have seven members on each side of 
the aisle weighing in.
    Over the last year, I think what has amazed me most, I 
think I shared it with you when we spoke last week, was the 
broad array of interests in terms of weighing in. I was 
surprised in the business community that it goes beyond just 
agriculture, transportation, energy production. Almost 
everyone, I think, wants to be part of it. I think one of the 
defining points of view would be how do we do it and how do we 
pay for it. That subject hardly ever comes up on anything we 
talk about here in a way that is really meaningful, that 
addresses it up front.
    Where do you stand on trying to take innovation and 
technology, that would have a recent reference to what we have 
done with vaccinations addressing the COVID challenge? Look 
what was accomplished there by really galvanizing a kind of 
innovation maybe already in motion, and to do so quickly, 
accomplish a result that is going to probably be what puts that 
in the rearview mirror. Tell me how you think we do that as 
opposed to maybe the approach up to this point that has been 
more costly, which has been a highly regulatory approach.
    Mr. Regan. Thank you for that question. In North Carolina, 
I will say what we did was, we took a look at regulations. No. 
1, we wanted the regulations to be flexible enough, or the 
interpretation of the regulations to be flexible enough to 
allow for innovation. We can't achieve our goals without a very 
strong public-private partnership. We know that our private 
partnerships are really on the cusp and drive the markets.
    So my strategy has always been engage our private sector 
counterparts, take a look at the intent of the regulation and 
the law, ensure that there aren't too many administrative 
burdens, and look at what can be gained, if we can find 
efficiencies in the execution and implementation of those 
regulations.
    One of the things that pained me the most in North 
Carolina, and I think I am going to have the same problem at 
EPA, is the stripping of the budgets don't prevent an agency 
from writing a regulation; it prevents an agency from providing 
technical expertise and experience to our stakeholders who we 
want to see drive innovation while achieving those 
environmental goals.
    So my pledge is to be as collaborative as possible while 
developing any regulations that might be needed, looking out 
for those administrative burdens, and then having our agency as 
partners as we execute on the implementation of those 
regulations. But I do believe that regulation is not the sole 
answer.
    So I will be partnering with my counterparts at the 
Department of Energy, Department of Agriculture, Department of 
Defense, all of which I have already talked to in terms of how 
do we solve some of these complex problems that we are facing.
    Senator Braun. Second question, I think we discussed it a 
little bit last week as well, would be the global 
responsibility in terms of tackling the issue of climate change 
and how we turn it around, how we pay for it. What is your 
feeling in terms of that approach of thinking that we need to 
do even more on our end when we are of the larger economies, 
the one that has emissions headed in the right direction? How 
will that thought of getting the rest of the world involved, 
especially doing more than saying they are going to do 
something, making in the way that you can weigh in tell places 
like China, Russia, India that yes, you are putting these goals 
and statements out there, but your actions show otherwise?
    Whenever that occurs, that means we are disproportionately 
paying for things again, when that is probably the weakest 
part, what we bring to the equation now is our Federal balance 
sheet and our ability to do more until we get that in order. 
Please comment on that.
    Mr. Regan. Thank you, Senator. It is an excellent question. 
That is a question that requires partnership. That is not going 
to be driven solely by regulation.
    I think that what we are trying to do, the President's 
aggressive climate plan looks at capturing the market so that 
we are globally competitive.
    In North Carolina, as Secretary, Senator Tillis mentioned 
when he was speaker of the house he was a really strong 
proponent of a balanced approach for solar energy. North 
Carolina is now second in solar installation in the country.
    What we find is most of the parts that we want to install 
come from China. We are finding that if we don't capture the 
market, we are going to fall behind. I believe that is the same 
for solar, it is for cars, there is a lot that we can capture 
in terms of manufacturing and the like to remain globally 
competitive.
    So what I believe you are seeing, with the President's 
approach, is not the country skating to where the puck is, I 
will borrow from Wayne Gretsky, we are trying to skate to where 
we believe that puck is going to be. And if we can design 
regulations that are complementary to the types of investments 
in research and development that we need to harness the power 
of the private sector and create new jobs. I believe that this 
country will be a global leader, and other countries will 
follow.
    Senator Capito. Thank you, Senator.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Regan. I wanted to start by 
asking if you were familiar with the Presidential Plastics 
Action plan that some 500 environmental groups have put 
together.
    Mr. Regan. Yes, vaguely.
    Senator Merkley. OK. Would you consider a commitment to 
take a very close look at it?
    Mr. Regan. Absolutely. We will take a close look at it. We 
will evaluate EPA's role, and we will partner with you on 
advancing that.
    Senator Merkley. Thank you. There is a whole lot that can 
be done. We have a challenge from plastics in a couple of ways. 
One is that the production of plastics produces a tremendous 
amount of greenhouses gases. And second is plastic, when it is 
through with its single life, is rarely recycled. We have that 
slogan about recycling, but in fact, a more accurate slogan 
would be it is either burned or it is buried or it is borne to 
sea where it causes all sorts of environmental problems, 
including in the rivers, and our oceans.
    Do you agree that this is a significant challenge that we 
need to work and take on?
    Mr. Regan. I do agree that it is a significant challenge 
when we look at the role of plastics, especially the impacts 
that we have seen with our marine life and our coastal 
communities.
    Senator Merkley. We see it very much in Oregon's coastal 
community. I know you see it from the other side of the 
country. It creates all sorts of issues.
    The EPA has an environmentally preferable purchasing 
program where they have the power to set an example and help 
introduce potentially more sustainable products in place of 
single use plastics. Will you take a look at that program and 
the possibility of EPA using that as an opportunity to show 
what can be done to replace single use plastics with more 
sustainable products?
    Mr. Regan. Absolutely, Senator. Where there is a program at 
EPA and where we have an opportunity to be a global leader, we 
will do an evaluation and we will put our shoulder to that 
wheel.
    Senator Merkley. I want to turn to the topic of asbestos. 
Most nations in the world have banned asbestos for all the 
reasons that we are familiar with. In 2016, we took another 
stab at this by passing in a bipartisan fashion the Lautenberg 
Toxic Substances Control Act, or TSCA, the Lautenberg version 
of that.
    Not much action has happened since 2016. In December, so 
just over a month ago, there was finally a part one risk 
evaluation done at EPA. And it did find that there were 
unreasonable risks of cancer.
    But the Science Advisory Committee that looked at the work 
of EPA said, wow, you didn't consider all the asbestos fibers, 
you didn't consider all the different asbestos diseases, you 
didn't look at all the different routes and pathways of 
exposure. So you really did a very minimal job not capturing 
the full impact.
    Would you consider having the EPA redo that part one 
evaluation to try to get this right and use the best science to 
really see what the risk is to human health?
    Mr. Regan. Thank you for that question, Senator. I 
absolutely will work with my staff to take a look at that 
evaluation, determine where those data and science gaps are, 
and then govern ourselves accordingly moving forward.
    You have my pledge that as we take a look at all of these, 
No. 1, the processes that we undertake will be much more 
transparent. No. 2, we will use the latest science and the 
latest data. No. 3, our results should be supported by the 
science and by the law.
    So you have my commitment to do that.
    Senator Merkley. Thank you.
    One of the things that we notice so often, different 
facilities are located near low income communities, communities 
of color, and it has a disproportionate impact, our 
manufacturing system, on the health of low income communities 
or communities of color. In this sense there are a lot of 
issues of environmental justice. Do you feel that you are 
pretty well read into that set of challenges and have some 
ideas on how to tackle it?
    Mr. Regan. I will say that I am very enthusiastic about the 
President's commitment to environmental justice and equity. It 
is something that I have spent a lot of my career on.
    My first stint at EPA was focused on environmental justice 
and equity issues. I established the first environmental 
justice and equity advisory board in the State of North 
Carolina, bridging environmentalism and civil rights to find 
solutions for our fence line of disproportionately impacted 
communities.
    There is some work that we have to do at EPA to take a look 
at restructuring and making sure that we have adequate 
resources to address environmental justice. So not only do I 
look forward to structuring EPA so that we can adequately 
respond, but I look forward to partnering with you and Congress 
so that we can be sure that where we have gaps in our laws and 
regulations, that we can rectify that so that we are ensuring 
all Americans have access to clean air, clean water, and clean 
environments to live in.
    Senator Merkley. I am running out of time.
    Madam Chairman, I will just close by saying that the 
biggest challenge testing human civilization is whether we can 
tackle climate chaos. I know you are well familiar with the 
issue, and I look forward to working with you on that endeavor.
    Mr. Regan. Thank you, Senator.
    Senator Capito. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chair.
    Mr. Regan, congratulations on the nomination.
    Despite calls for unity during his inauguration speech, 
President Biden took immediate, damaging, and divisive action. 
He canceled the Keystone XL Pipeline, and with it thousands of 
good jobs, some union jobs, some non-union jobs. But thousands 
of good jobs.
    He has threatened tens of thousands of jobs in my home 
State of Wyoming and across the country when he halted oil, 
gas, and coal leasing on Federal lands. He ceded American 
environmental and economic independence to the European Union 
and China when he rejoined the Paris Climate Accord. And he 
opened the door to revisiting some of the most economically 
devastating regulations from the Obama era, like Waters of the 
United States, the disastrous Clean Power Plan, and many more.
    It does seem that with every campaign promise that he 
delivers, President Biden is also delivering pink slips to 
hardworking men and women in Wyoming and across the country. 
Despite the dizzying pace of the President's job killing 
executive actions, many on the other side believe that he 
should do more, and do it more quickly. Senator Schumer said 
that the other day on the floor. Some believe the President 
should immediately declare a climate emergency. Such a 
declaration, of course, would silence Congress, would silence 
States and the American people during one of the most 
consequential discussions and decisions of our time.
    I think it sidelines workers, industry, families who are 
already struggling to make ends meet during these difficult 
times.
    So the question for you is, do you believe the President 
should circumvent Congress and the will of the American people 
by declaring a climate emergency?
    Mr. Regan. I do believe that we are facing a dire situation 
with climate change and impacts. But I don't think that is to 
negate the fact that we all understand the anxiety and the fear 
as we make this transition that folks in your States have, and 
States like West Virginia and North Carolina and other States.
    What I believe is that the President has an aggressive 
agenda that looks at the whole of Government. What I know is we 
have been instructed that we are not to leave any community 
behind. In order for us to be successful, every State and every 
community has to see itself in our vision.
    I would be careful and never say, we are looking at clean 
jobs. We are looking at all jobs. Many of these jobs should 
transition as we look forward to protecting ourselves from 
climate change and the climate change impacts.
    So I look forward to working with you on how we ensure that 
we don't leave any communities behind, and that as we invest in 
our infrastructure, whether that is our grid, our water 
infrastructure, whether we invest in pipelines that are 
leaking, transportation, bridges, that we do that in a way 
where we are consulting your constituents, so that we can 
adequately address this climate change while growing as many 
jobs as possible.
    Senator Barrasso. Well, I appreciate that answer, because 
former Senator John Kerry has said that people who are working 
in the industries in Wyoming, they need to make better choices. 
It is interesting that a Washington Post fact checker also 
referred to his comments as being misleading and providing 
false hope. The Secretary of Energy nominee, she talked about 
jobs being sacrificed. So I appreciate your comments on the 
jobs and the focus there.
    I want to talk about small refineries. Unlike large oil 
refineries, the small refineries don't have the economies of 
scale to comply with our Nation's biofuel mandate, the 
renewable fuels standard. That is why Congress allows small 
refineries to petition the EPA for what is known as hardship 
relief. This has been going on, and this is in law.
    Before deciding whether to grant relief, the Administrator 
of the EPA, by law, is required to consult with the Secretary 
of Energy. Now, under the last two Administrations, Federal 
courts have rebuked EPA and the Department of Energy both for 
failing to account for all of the challenges that small 
refineries face under the RFS. So if confirmed, will you ensure 
that the EPA fully accounts for the challenges that small 
refineries face when evaluating these hardship relief 
petitions?
    Mr. Regan. Thank you for the question, Senator.
    If I am confirmed, I commit that we will fully follow the 
law. And I commit that we will fully be transparent. I am not 
certain that either side understands how these decisions were 
arrived to. So I think it is very important that we have 
transparency, that we use sound science, and follow the law in 
a deliberative process by which we communicate with you all so 
that you understand the decisions that we make.
    Senator Barrasso. Madam Chairman, I have some additional 
questions. But with your permission, I will submit those in 
writing.
    Senator Capito. Sounds good. Thank you, Senator.
    Senator Gillibrand.
    Senator Gillibrand. Thank you so much, Madam Chairwoman, 
for this hearing.
    Secretary Regan, thank you for testifying today and for 
your willingness to serve as our EPA Administrator. The EPA 
does a lot of work to restore its mission to protect human 
health and the environment. I know you will have many 
priorities on your plate once you are confirmed.
    One area that I hope to prioritize is the PFAS chemicals. I 
am grateful that President Biden included PFAS in his Build 
Back Better plan, and his Administration has an opportunity to 
make real progress in reducing people's exposure to this very 
toxic chemical.
    As we discussed when we spoke a few weeks ago, I have been 
working on bipartisan legislation with Senator Capito that 
would require EPA to set standards under the Safe Drinking 
Water Act for PFAS. Just days before the end of the previous 
Administration, the EPA under Administrator Wheeler issued a 
regulatory determination to begin the process for setting 
drinking water standards for PFAS. However, in my view, the 
previous Administration did not move with the sense of urgency 
that we need on this issue.
    So my first question is this. Will you make PFAS an agency-
wide priority at the EPA, so that more time is not wasted while 
families continue to be exposed and harmed by these very toxic 
chemicals?
    Mr. Regan. Thank you for that question, Senator Gillibrand. 
You and I and Senator Capito know all too well the devastating 
impacts to our States by the lack of action on behalf of the 
EPA. PFAS, PFOA, perfluorinated compounds, will be a top 
priority for this Administration.
    We will pursue discharge limits. We will pursue water 
quality values. We will pursue all avenues that we can while we 
are developing these rulemaking processes, to give the proper 
signals to States, so that States can take the appropriate 
actions, like we have had to take in North Carolina.
    Senator Gillibrand. Will that include setting a drinking 
water standard for PFAS?
    Mr. Regan. Thank you for the question, Senator. What I plan 
to do is sit down and spend some time with the staff at EPA, 
with our counsel, to understand the multiple avenues I believe 
we have at our fingertips to address PFAS.
    Senator Gillibrand. Thank you. You are one of the first 
State environmental leaders to regulate industrial discharges 
of PFAS. I know it is an important issue.
    It has been estimated that there could be 2,500 
manufacturing facilities discharging PFAS into the air and 
water across the country. I have authored legislation in the 
Senate to regulate PFAS under the Clean Water Act which would 
require industrial discharges to be subject to permitting and 
pre-treatment standards.
    Given your experience at the State level, what is your 
vision on how EPA should approach industrial PFAS pollution in 
order to prevent more PFAS from entering the environment in the 
first place?
    Mr. Regan. Thank you for that question. I think there is a 
lot of wisdom in the vision and the direction that you are 
headed. We need to have a full accounting of how these forever 
chemicals are entering into our water, as well as our air. So I 
think we need to take a look at the discharge of PFAS from a 
water quality standpoint. I think we need to take a very strong 
look at the emissions that are coming from the combustion and 
incineration of products that yield PFAS into our atmosphere.
    I can commit to you that on day one, that this is and will 
be a priority for this Administration to set limits on how much 
of this chemical compound is entering into our air and our 
water.
    Senator Gillibrand. Thank you. One more question. Another 
area that we have previously discussed which is very important 
to my State is the continuation of EPA's geographic programs, 
in particular, the Great Lakes Restoration Initiative and the 
Long Island Sound Study. Both of these programs have been 
essential to improving water quality, including harmful 
pollution. We have had bipartisan success over the past several 
years in sustaining and growing these programs. I hope that 
under the Biden administration, these programs will have the 
full support of the EPA and the Administration as a whole.
    Will you support robust funding to continue these 
important, effective programs?
    Mr. Regan. Thank you for the question. We will pursue the 
adequate funding, robust funding, to support these regional and 
State programs. Again, it is my belief that the Federal 
Government should provide support to our regions and our States 
who know their constituents much better than the Federal 
Government ever could.
    Senator Gillibrand. Thank you, and thank you, Madam 
Chairwoman.
    Senator Capito. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Madam Chair.
    Mr. Regan, congratulations on your nomination.
    I want to follow on where Senator Barrasso was going. I 
have been very concerned about the initial executive orders 
coming out of the White House. As a matter of fact, I led a 
letter with 25 Senators, so over one-quarter of the entire U.S. 
Senate, to the President asking for a meeting on his plans 
particularly as they related to energy related jobs.
    I am really concerned when you see John Kerry, Gina 
McCarthy, who are at the White House already setting policy. I 
know that the Chair has expressed concerns about who is going 
to be in charge. I think it should be you, since you are going 
to be Senate confirmed, if you are confirmed, not two 
unconfirmed officials who are clearly taking the reins.
    But when John Kerry talked about, well, President Biden 
wants to make sure that folks have better choices, like solar 
panels. I talked to my leadership in Alaska, union leaders. A, 
they find that attitude very condescending, cavalier, we are 
going to kill a bunch of good oil and gas jobs so we can tell 
you what is better.
    Can you talk to my constituents about how you believe, or 
what is your thought on the policies that right now appear to 
be killing jobs, good jobs, during a recession, with nothing to 
replace them? There is no solar jobs, as John Kerry says, in my 
State, when the risks of hundreds if not thousands of jobs are 
going to be going away in the oil and gas sector. I would like 
your views on this.
    Mr. Regan. Thank you for the question, Senator. It is my 
belief and firm understanding, to answer the question who is in 
charge, President Biden is in charge. I think he has 
assembled----
    Senator Sullivan. Yes, I get that. I understand. Sorry to 
interrupt you. But if you are confirmed, who is going to be in 
charge below President Biden?
    Mr. Regan. Thank you for that. If I am confirmed, then I 
believe Congress has bestowed certain powers and authorities 
and accountability to me as the Secretary of EPA.
    Senator Sullivan. I would agree with that.
    Mr. Regan. So where the decisions are in EPA's purview, I 
can assure you that I will be leading and making those 
decisions. I will be accepting the accountability for those 
decisions.
    I believe that the executive order that the President 
issued to pause the new sale of oil and gas leases doesn't 
impact the 90 percent of oil and gas activities that are 
occurring currently. So the role of EPA is really to work with 
you, to work with your constituents, to work with the industry 
to look at a rule that would be best structured to reduce the 
methane emissions that are coming from those activities.
    Senator Sullivan. Let me ask you this. In this sector, 
though, you are going to have a lot of power. Do you think it 
is a good idea to be killing any jobs when we are in this major 
recession?
    Chuck Schumer is talking about a $2 trillion stimulus 
package because of the high unemployment rate. The President of 
the United States, in his first week in office, is putting 
thousands of people out of work.
    Is that a good idea? Do you support that?
    Mr. Regan. I don't think it is a good idea to kill jobs. I 
think it is a good idea to ensure that we are transitioning the 
economy toward where we know the jobs will be.
    Senator Sullivan. OK, but if there aren't jobs to be 
transitioned--this is my whole problem. This is why we want to 
talk to the President. Right now they look like they are 
putting forward a strategy that will crush jobs, lower the 
amount of energy we produce, and the only replacement is no 
jobs in this sector, and importing more oil and gas from 
countries like Russia and Venezuela. It is a policy that makes 
no sense.
    Help me again on the jobs.
    Mr. Regan. I think when we look at the jobs, we are looking 
at the full breadth of what the President intends, which are 
major investments immediately in infrastructure, infrastructure 
in terms of making sure that the pipes that we have are not 
leaky and are reducing the climate impact, making sure that we 
invest in our water quality, water sewer, water infrastructure, 
looking at a more intelligent grid, looking at roads and 
bridges.
    I believe that many of the jobs and the skill sets that 
people have in your State and other States can move quickly to 
those jobs while we also look at the advancements of other 
research and development opportunities to position the very 
communities that supported this country during the Industrial 
Revolution----
    Senator Sullivan. That is right.
    Mr. Regan [continuing]. And made this country competitive. 
There is a path, there is a vision----
    Senator Sullivan. I am sorry, Madam Chair, just one final 
follow up, because this is a really important topic.
    The Secretary of Energy in her confirmation hearing kind of 
indicated that ``some jobs may have to be sacrificed.'' Again, 
we are in a deep recession. There are millions of people out of 
work. These are some of the best jobs in the country, certainly 
in my State.
    These are, to your point, and I appreciate your raising 
this, the men and women who built this country. Yet right now, 
when you ask any of the union leaders, these are great union 
jobs by the way, building trades, when you ask them, if you 
lose an oil and gas job in Alaska, or in North Dakota or Texas, 
what can you replace it with, jobs that would be sacrificed, 
nobody has an answer. It is a strategy and a policy that makes 
no sense, which is why we want to go see the President.
    The White House press secretary said, sorry, the President 
is not interested in meeting with one-quarter of the Senate on 
the issue of jobs and energy. I hope he changes his mind, and 
if you get confirmed, maybe you can convince this to talk about 
this really important issue.
    Mr. Regan. Thanks for the question, Senator. What I can 
assure you is if I am confirmed, I will be sitting down with 
you, hopefully by invitation in your State, talking to----
    Senator Sullivan. We are going to get to round two, so 
trust me, you are going to get that.
    Mr. Regan. All right. Sounds good.
    Senator Capito. Senator Booker.
    Senator Carper. Madam Chairman, can I ask unanimous consent 
to enter into the record statements to place, AFL-CIO Biden 
executive order support letter into the record, and also a 
statement to place the Forbes Obama job growth article into the 
record? I ask unanimous consent.
    Senator Capito. Without objection.
    Senator Carper. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Senator Sullivan. Madam Chair, I am sorry, can I submit 
another letter to the record? Maybe I will do that on my--it is 
a different letter from the Laborers International, the 
Pipefitters, their statements on the jobs that have been killed 
in the building trades that I think would be----
    Senator Capito. You make that motion on your next round. If 
you want to make it now?
    Senator Sullivan. I would like to admit that for the 
record.
    Senator Capito. Without objection.
    [The referenced information was not available at time of 
print.]
    Senator Capito. Senator Booker.
    Senator Booker. Chairwoman, thank you, very, very much.
    Mr. Regan, it is very good to see you here. I look forward 
to, and am very excited to vote for you for confirmation.
    I am really disturbed, I have traveled through this 
country, was one of the founders here in the Senate of the 
Environmental Justice Caucus, along with the soon to be 
Chairman, and another one of my incredible colleagues, Tammy 
Duckworth.
    I took a journey through environmental justice issues from 
toxic sites in my own State that have laid, languished, lead 
problems facing my children. But I didn't stop there. I 
traveled from Lowndes County, Alabama, and saw horrific 
evidence of tropical diseases because of the sewage problems 
there. I was in Duplin County, North Carolina, met with 
activists there, who, one Vietnam veteran said, I left Vietnam, 
came home, and I have been a prisoner in my own home because of 
the massive corporate polluters in his State.
    I have traveled over to a place in America, you just Google 
it by calling it Cancer Alley along the Mississippi River, in 
St. Johns Parish, where there are factories, I just stood there 
and watched them and saw the air quality report, polluting the 
air in these low income communities. In Uniontown, Alabama, I 
could go on, to the places that I have gone in this country 
where you have Americans being poisoned by environmental 
injustices.
    What made most of the communities I visited more galling, 
most of them were low income communities, and most of them were 
communities of color. I was surprised, I am a Senator from New 
Jersey, I remember a Black church in Cancer Alley, packed full 
of people, each of them coming up to talk about the numbers of 
their family members that have died from cancer in that cancer 
cluster. All packed together to see one Federal official. They 
just said, they feel like nobody in the Federal Government 
cares about them.
    We live in this country that has such proud ideals, but we 
have fallen so short. The No. 1 predictor, in fact, at this 
point, of whether you are going to live around toxicity, 
whether drink polluted water or breathe dirty air is the color 
of your skin.
    So I just want to ask you just point blank, you are, should 
you be confirmed, going to be running an agency whose civil 
rights division has been eviscerated over the years, where 
people who look for you to help, you are not even equipped, in 
my opinion, to actually begin to fight against these issues 
that affect millions of Americans.
    We talk about Flint, Michigan, there are at least 3,000 
jurisdictions where children have more than twice the blood 
lead levels of Flint, Michigan.
    So if confirmed, will you make reforming and strengthening 
the EPA's civil rights office a priority?
    Mr. Regan. Thank you for the question and the statements, 
Senator Booker. Environmental justice is something that is near 
and dear to my heart. It has been a part of my career since I 
started at the EPA the first time around.
    I agree with you that the justice system in this country is 
failing in a number of areas, including in the environmental 
justice arena. What I plan to do, first and foremost, is find 
the resources and establish an environmental justice advisor to 
the Administrator.
    The second thing we plan to do is look at a restructuring 
and reorganization to be sure that our office of civil rights, 
and we have had adequate staff from every media office that is 
paying attention specifically to environmental injustice.
    And No. 3, you all will hear from me frequently that we do 
need, or will need, additional resources if we are to commit to 
solving environmental injustice and equity issues.
    In North Carolina, I established the first environmental 
justice and equity advisory board, just because as government, 
we think we know until we start to hear directly from the 
community.
    Senator Booker. I am going to pause there, because I do not 
want to go the 8 or 9 minutes over that one of my colleagues 
went. There is another group of people that are disregarded, 
disrespected, discounted in our country, and that is 
agriculture workers.
    Last October, under the Trump administration, the EPA 
finalized a rule to weaken the agriculture worker protection 
standards, safeguards meant to protect farm workers, their 
families, rural communities in general from the harms of toxic 
pesticide exposure.
    We know that these rollbacks will result in farm workers in 
nearby communities being at greater risk of being accidentally 
sprayed by pesticides. I have met with farm workers. I have 
heard their stories. We know that chlorpyrifos, for example, is 
a pesticide that Federal scientists have determined to be 
highly dangerous for farm workers, and can cause brain damage 
to the young children of these farm working families.
    EPA scientists have twice recommended that the EPA ban the 
use of this pesticide. Seven countries in the EU have banned 
it.
    So I want an affirmation from you that you will not render 
farm workers in America invisible, that their cries for 
justice, that the health of their children, that these people 
who are an integral, indispensable part of our food systems, 
will be treated with human dignity. Can I get an affirmation of 
that?
    Mr. Regan. Absolutely. You have my confirmation on that.
    Senator Booker. And would you consider putting science 
ahead of big business when it comes to the chemical 
chlorpyrifos?
    Mr. Regan. We will be driven by science, and we will be 
driven by the rule of law.
    Senator Booker. Then finally, one of the proudest members, 
this is my last moment on this Committee, and I want to tell 
you what an honor it has been to serve on it. One of the 
proudest things I got a chance to do was to work on the TSCA 
effort here. It was a bipartisan bill. We advanced an issue 
around making sure that we were reducing animal testing with a 
great goal.
    Will you just please commit that you will remain strongly 
committed to the work we did together in TSCA, and the 
reduction of animal testing or to the greatest extent, the 
elimination of it?
    Mr. Regan. You have my confirmation on that as well.
    Senator Booker. Thank you very much.
    Senator Capito. Thank you. Thank you for your service on 
the Committee. We will miss you.
    Senator Booker. Thank you.
    Senator Capito. Senator Boozman.
    Senator Boozman. Thank you very much.
    Thank you for being here. I have heard from a lot of 
friends of yours, and you have an excellent reputation.
    One of the honors that I have is being the ranking member 
of the Agriculture Committee, representing our farm community. 
Certainly, I know this has come up a bunch today, but the 
Waters of the U.S. was really a real burden.
    As Secretary of the North Carolina Department of 
Environmental Quality, you signed a letter regarding EPA's 2019 
rule repealing the 2015 Waters of the U.S. rule. In this 
letter, you stated that the EPA should ``try to promulgate a 
clear definition of WOTUS and should allow States the 
flexibility to regulate waters necessary to achieve the goals 
of the Clean Water Act in a manner that ensures the health, 
safety, and economic prosperity of their citizens.''
    But you ultimately opposed EPA's final Navigable Waters 
Protection Rule. Do you support a rule such as the 2015 rule, 
which had roughly one-half of the country operating on one 
regulatory construct and the other half of the country 
operating on another.
    Mr. Regan. Thank you for that question, Senator. As the 
Secretary of DEQ, having to respond to both rules, there are a 
lot of lessons learned, pragmatic experiences or pragmatic 
solutions that we have learned from experiences.
    I spent a lot of time with a lot of small farmers, I have 
spent a lot of time with a lot of environmental groups. What I 
would say is, I am looking forward to convening multiple 
stakeholder groups on how we chart a path forward. I don't 
believe that we have to sacrifice water quality at the expense 
of making sure that farmers, especially small farmers, have a 
fighting chance in this economy. I believe that you can do 
both.
    What I saw with the 2019 rule was a rollback that went even 
further back than Presidents of both of our parties. So what I 
am hopeful for is that we don't have to go with a slingshot 
approach, that we can look for a common ground, where we give 
the farming community and the environmental community some 
certainty that as we move forward, we are going to follow the 
science, follow the law, look at a pragmatic approach that 
doesn't overburden the farmer. But we don't have to sacrifice 
precious wetlands in North Carolina like our Carolina bays and 
the others.
    The last thing I will say is, it is very difficult for any 
kind of Federal regulation to truly address the unique 
agricultural needs of different regions. The agriculture needs 
are different in all of our regions. And the water makeup in 
Nevada surely doesn't look like the water makeup in North 
Carolina. So I want a rule that moves forward, that is not 
overly burdensome, but gives the States the flexibility to 
protect water quality and protect the local agricultural 
economy.
    Senator Boozman. I would agree with that. The problem is 
that generally, with EPA, and you have experienced this in 
North Carolina, they agree with you unless the State disagrees. 
That becomes a problem.
    For our small farmers, and I agree with everything you 
said, regarding the burden on particularly our small farmers. 
As EPA director, what is the significant nexus test regarding 
Waters of the U.S.? What is the nexus test? What would you tell 
our farmers?
    Mr. Regan. What I think I will tell our farmers is that 
with this Administrator, we are going to have an open door 
policy. I want to hear from our farming community. I want to 
hear about the administrative burdens that they felt they 
suffered as a result of some of what they call definitions that 
they did not understand.
    But I also want to make it a point that in North Carolina, 
one of the biggest problems we saw was the lack of resources in 
my department to provide technical assistance to these farmers. 
I don't believe that small farmers are looking for a shortcut, 
and I don't believe that small farmers do not want to protect 
our wetlands and our water quality. We have to work together to 
make sure that we have a rule that is understandable but 
protective of, again, our water quality as well as not 
overburden our small farmers. I believe that we can do that if 
we have more conversations.
    Senator Boozman. Good. Well, we look forward to working 
with you on that. And it really is important. Listening to you, 
you understand the importance, and I appreciate that.
    Also, I agree with the statement about the fact that I know 
that in North Carolina, Arkansas, almost all of our States, the 
resources to actually educate farmers in lots of different 
things is lacking.
    Mr. Regan. Yes, it is.
    Senator Boozman. So hopefully we can help with that, also.
    Mr. Regan. Absolutely.
    Senator Boozman. Thank you very much.
    Senator Capito. Thank you.
    Senator Markey.
    Senator Markey. Madam Chair, can you hear me and see me?
    Senator Capito. I can hear you, but I can't see you, but I 
bet I will in a few minutes. I can hear you though, very well. 
There you are.
    Senator Markey. OK, beautiful, thank you, Madam Chair.
    Welcome, Mr. Secretary. I have looked at your outstanding 
record. I know that you are going to do an outstanding job at 
the EPA.
    What I would like to do is, begin talking about clean car 
standards and our ability to lift the overall energy efficiency 
of the vehicles which we drive in the United States of America. 
We have had a rollback over the last 4 years, but we have had 
big developments very recently where General Motors has now 
announced that they are going to end their production of the 
internal combustion engine vehicles by the year 2035. China is 
on a similar course. Europe is moving very aggressively.
    Are you committed to using the authorities you have at the 
EPA in order to increase those fuel economy standards? And do 
you believe ultimately that there are consumer benefits to 
having these much more efficient vehicles be put on the roads 
and given as an option for consumers to purchase?
    Mr. Regan. Thank you for the question, Senator.
    I do anticipate using our statutory authority to set the 
rules for the road. And I believe that we are going to do it in 
a way that it complements the aggressive goals set by and 
established by the private sector, the automobile industries.
    We believe that the market is trending in a specific 
direction. And we believe that we need the right policies and 
the right regulations to be sure that all of the players 
understand that there is a level playing field and understand 
the rules of engagement.
    There are tremendous benefits to moving in this direction. 
There are tremendous benefits to the economy; there are 
tremendous benefits to our automobile manufacturing sector in 
terms of production. There are tremendous benefits from a 
health and climate standpoint.
    We have to do a good job of having robust conversations 
with all the stakeholders, so that we can really, really take 
advantage of the win-win-win, and that our strong labor force 
can see themselves in this vision for the future.
    Senator Markey. So, I agree with you, it is good for the 
climate and environment, it is a job creation engine, and it 
actually ultimately helps consumers with lower prices in the 
long run. So I agree with you a hundred percent.
    Will you work to ensure that States like California and 
Massachusetts can work toward the creation of their own 
standards to make sure that vehicles in those States meet the 
highest standards?
    Mr. Regan. Absolutely. I believe in following the law and 
following established precedents. I think that the California 
waiver exists for a reason. I think there is a process that we 
should follow, and if those States follow those processes and 
want to be champions in this arena, then they can go forth and 
conquer, and the rest of the country can learn from these first 
mover opportunities that they are taking advantage of.
    Senator Markey. I agree with you. The States can move, and 
you can move. We are so glad to have you there. We can turn EPA 
into Economy Protection Agency, we can turn the EPA into 
Emissions Prevention Agency. I just think we are on the cusp of 
a great new era.
    I would love to turn now to our conversation about 
environmental justice. You just had a great conversation with 
Senator Booker. I have introduced legislation, the 
Environmental Justice Mapping and Data Collection Act. The 
reason I have done that, with Congresswoman Cori Bush, is to 
make sure that we actually measure the pollution, measure the 
environmental damage. Because if you can't measure something, 
you can't plan to deal with it.
    So what do you think about that kind of legislation, and 
those kinds of tools being given to you so that that kind of 
mapping can be done all across the country, and as a result 
remedial actions can be taken in a much more wise and targeted 
way? But also knowing that it is disproportionately in Black 
and Brown communities all across the country.
    Mr. Regan. Thank you for that, and thank you for your 
leadership on that. I believe that the more data that we have, 
the more modeling that we have, the more tools that we have 
that paint these pictures, the easier it is for us to make the 
case. We know that there are disproportionate impacts to many 
of our communities.
    So the more data we have, the greater ability we have to 
rectify those problems. I also believe that tools like that, 
and we have seen this in North Carolina, when you put tools 
like this in the hands of our economic developers and our 
locally elected officials, No. 1, they will take action or help 
support State agencies take action. But No. 2, as they do their 
long term planning to recruit new industries, they have a 
better sense of what the cumulative impact could be to these 
communities based on the decisions that they are making.
    So I believe it gives business also a clearer understanding 
of how to plan for economic development projects as well.
    Senator Markey. So President Biden has----
    Senator Capito. Senator Markey, time.
    Senator Markey. Thank you, Madam Chairman.
    I am looking forward to working with you, Mr. Secretary.
    Senator Capito. Senator Wicker.
    Senator Wicker. Hello, Mr. Regan. Glad to get a chance to 
see you in person. Thank you for taking the time to talk to me 
a couple of times on the phone.
    When we visited, I mentioned that I was stationed in your 
home town of Goldsboro, North Carolina, for some 4 years. We 
lived on Elm Street, and it turns out we were practically 
neighbors when we were there for the 4 years.
    Mr. Regan. That is right.
    Senator Wicker. North Carolina has become a lot more urban 
since I moved away in 1980. But still a lot of rural small 
towns, rural communities, and I would imagine a lot of rural 
water associations. Is that correct?
    Mr. Regan. That is correct.
    Senator Wicker. And you had a chance to work with them as 
Secretary, DEQ Secretary of North Carolina?
    Mr. Regan. Yes.
    Senator Wicker. Let me ask you if you agree with this. 
There is not a single water association board or board member 
that doesn't want to comply with the Clean Water Act or the 
Safe Drinking Water Act; it is just a matter of having the 
expertise and the resources to do so. Am I generally correct 
there?
    Mr. Regan. That is correct.
    Senator Wicker. So in working with these volunteer 
association boards to comply with the new requirements, there 
are two ways to approach this. One would be to impose penalties 
on them for not getting to where they need to be, and the other 
would be technical assistance, financial assistance, and 
resources to help them get to where you want them to go, and 
where they want to get to.
    I like the second approach. What do you say about that? And 
what has been your experience as DEQ Secretary?
    Mr. Regan. My experience as DEQ Secretary is that No. 1, 
people don't like surprises. They like to understand the rules 
of the road, and they like certainty. Where we have been most 
successful is the ability to provide technical assistance so 
that folks do not run afoul.
    Senator Wicker. OK. But also, a lot of times when they are 
running afoul, as you say, it is something that they didn't 
bring upon themselves, it is just their inability to afford the 
new equipment or the new hardware that it takes to get where 
they want to go. That is where the assistance and the technical 
assistance comes in. I think you and I are on the same page 
there.
    But I hope you can assure me that you are going to work in 
a collaborative way with these associations who absolutely want 
the best water and the cleanest water for the members of their 
association and the neighborhoods.
    Mr. Regan. I will. And this is where the President's plan 
looking at the number of investments that we need in our water 
infrastructure is so critical. In North Carolina, we have 
somewhere between $17 billion and $21 billion worth of water 
infrastructure needs. We have advanced technologies that can 
detect water chemicals and pollutants that no one ever dreamed 
of.
    We have to find a way to partner with these water 
associations, invest in this infrastructure, so that we can do 
a couple of things. The first is that we can protect water 
quality. But No. 2, without this infrastructure, these rural 
towns and cities are lagging behind in the ability to develop 
economically and attract businesses.
    Senator Wicker. I think I am understanding from your answer 
that North Carolina rural water associations are not quite 
there yet either, and it is going to take some Federal 
assistance.
    Mr. Regan. I think every State is struggling, across the 
country, sir.
    Senator Wicker. Let me mention one other thing. Senator 
Cardin went on about Chesapeake Bay, Senator Whitehouse could 
hardly wait until he got to the microphone to mention 
Narragansett Bay. I am sure they are mighty fine. There is also 
the Gulf of Mexico. I certainly hope you will be down to see us 
soon in the Gulf of Mexico.
    You should know, if you don't already, that after the 
Deepwater Horizon spill in 2010, the largest oil spill in the 
history of the country, Congress passed the RESTORE Act. There 
is a RESTORE Council. Are you aware that they unanimously 
voted, the council unanimously voted that the EPA Administrator 
would serve as Chair of that council? Are you ready for that?
    Mr. Regan. I was not aware of that.
    Senator Wicker. OK. Well, I am telling you for the first 
time that you are. Under the previous Administration, the Chair 
worked collaboratively with the five States on the RESTORE 
Council. So if confirmed, you are going to need to get back to 
us and tell us how you would work and view your role as Chair 
of the RESTORE Council, which is responsible for deciding how 
the support for the impacted areas will be handled.
    Mr. Regan. Thank you for that. I can tell you just based on 
my experience, the way I would manage that body is, No. 1, 
ensuring that all the stakeholders have a voice. No. 2, that we 
understand what the clear rules of engagement are. And No. 3, 
that we will follow the science and the intent, the original 
intent of this RESTORE Council.
    I believe firmly that rules are set for a reason, that 
science and data can inform us, and that all of the people 
sitting at the table should have an equal voice in terms of how 
we move forward to find solutions.
    Senator Wicker. I can't wait to see you down there.
    Madam Chair, I just might observe that as other members 
have found, you have sped that clock up this afternoon somehow.
    Senator Capito. And your time is over.
    [Laughter.]
    Senator Wicker. Thank you, ma'am.
    Senator Capito. Senator Duckworth.
    Senator Duckworth. Thank you, Madam Chair. I am trying to 
start my video, but it does not seem to be working.
    Senator Capito. We can hear you, for sure.
    Senator Duckworth. OK, great. I am going to go ahead and 
start with my questions.
    Thank you so much, Mr. Regan, for, as we discussed, for 
your being here. And as we discussed during our courtesy 
meeting, solving our climate crisis must be a top national 
priority. A critical pillar of this effort should be the 
American biofuel industry. In particular, farmers and others in 
Illinois and throughout the heartland are ready to do their 
part to help lower carbon emissions in the transportation 
sector and reduce dependence on foreign oil, all while creating 
or supporting quality jobs right here at home.
    It is hard to think of a better way to put American 
interests first than supporting the U.S. biofuel industry. That 
is why one of the most surprising actions of the Trump 
administration may have been its cynical betrayal of the 
Midwest. While the former President campaigned on grand claims 
of being a champion of the renewable fuels standard, upon 
entering office, however, the Trump transition immediately 
empowered a billionaire in the oil refinery business to begin 
secret plotting to dismantle the RFS.
    My constituents in Illinois were betrayed, but remain 
optimistic that the Biden administration will be a staunch 
champion of our farmers and of American biofuels.
    Mr. Regan, if confirmed to lead EPA, will you prioritize 
the faithful execution of the bipartisan RFS program just as 
Congress intended?
    Mr. Regan. Thank you for that question, Senator Duckworth. 
You have my commitment that we will take a look at the RFS 
program, and we will introduce some transparency into that 
program. We will let science lead us, and we will follow the 
letter of the law as it was intended for that program.
    President Biden has not been shy that agriculture will have 
a seat at the table as we tackle climate. And he has been 
specifically focused on biofuels and advanced biofuels. One of 
the first conversations I had upon nomination was reaching out 
to now-Secretary Tom Vilsack to talk about how we can partner 
together to pursue these efforts.
    So you have my commitment in this area.
    Senator Duckworth. Thank you. We also need to look backward 
a little bit in terms of the backlog. Much attention was given 
to the prior Administration's unlawful abuse of exemptions for 
oil refineries.
    However, the Trump administration's sabotage of the RFS 
program was not limited to doing the bidding of big oil. In 
fact, EPA was also slow to act, or refused to act in certain 
cases on applications from innovative American companies 
developing new, advanced biofuels that are read to qualify for 
the RFS.
    EPA now faces a huge backlog of applications, some of which 
have been sitting for over 4 years. If confirmed, will you 
commit to prioritizing clearing this backlog so that new, 
climate friendly biofuels can enter the market as soon as 
possible?
    Mr. Regan. Thank you for the question, Senator. I will 
spend some time with our staff taking a look at this backlog, 
and working on processes of efficiency so that we can make up 
for lost time.
    Senator Duckworth. Thank you.
    I also want to talk to you a little bit about environmental 
justice. My partner in this, Senator Booker, initiated the 
conversation. We have talked about this at length on both sides 
of the aisle. I am so happy to see that there is bipartisan 
support for fixing environmental injustice.
    If confirmed, what actions would you take to 
institutionalize a focus on environmental justice in every 
region of the EPA?
    For example, some of the injustice happens because of 
structural injustice. You just don't have enough staff members 
that can do the monitoring, that can actually go out there in 
some of these regions, whether it is the south side of Chicago, 
or a rural community like Sauget, Illinois, in far southern 
Illinois, where there is just not enough people to go out there 
and actually maintain the ambient air monitoring of chemical 
emissions.
    What would you do to fix that, to actually fix the 
inequities within the institutional structure of EPA, so that 
we have a focus on environmental justice in every region where 
EPA is?
    Mr. Regan. Thank you for that question. I am proud to say 
that President Biden has made environmental justice a 
centerpiece of this Administration. So we are going to have 
some help in terms of looking at CEQ and other agencies as 
well.
    But as it relates to EPA, it is my intent to have an 
environmental justice and equity advisor to the Administrator, 
if I am lucky enough to be confirmed. We also are looking at 
how we need to organize EPA to be sure that environmental 
justice and equity is a top priority. We know that in looking 
at the preliminary hiring of a lot of officials at EPA we will 
have environmental justice and equity experts, people who have 
on the ground experience and expertise placed in all of our 
media offices, so that that lens is applied at every level of 
our decisionmaking.
    We have a lot of work to do. We have a lot of ground to 
make up. I am sure that I will be back before this Committee 
asking for additional resources in this area to be sure that 
all Americans have access to clean air and clean water.
    Senator Duckworth. Thank you. In the coming weeks, I will 
be introducing the comprehensive Environmental Justice for All 
Act in coordination with leaders of the House EJ Caucus, who 
will also introduce the House companion bill. If confirmed, 
will you commit to directing EPA to provide technical 
assistance to support my office and this Committee so that we 
may strengthen and advance this important legislative proposal?
    Mr. Regan. Thank you for that question. You have my 
commitment that the staff and myself at EPA will be a partner 
in any legislation that advances this topic and helps us do a 
better job of protecting each and every American in this 
country.
    Senator Capito. Thank you, Senator Duckworth. Your time is 
up.
    Senator Duckworth. Thank you, Madam Chair.
    Senator Capito. Senator Ernst, I believe, wants to question 
but in person. She is not here, so we will go to Senator Van 
Hollen.
    Oh, excuse me.
    Senator Carper. Before we do that, could I ask unanimous 
consent to place in the record a statement from, gosh, over 20 
agricultural organizations, in support of the nomination of 
Secretary Michael Regan?
    Senator Capito. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Capito. Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chair, thank you and 
Senator Carper and the others.
    Mr. Regan, congratulations on the nomination. Thank you for 
your service in North Carolina.
    Just at the top of my question and comments here, I do want 
to associate myself with the remarks of Senator Duckworth, and 
appreciate the focus on environmental justice and also with 
respect to Senator Merkley and other comments about the 
President's climate change agenda and how that is so important 
for American jobs. We don't want to leave any community behind, 
as you say.
    But by not engaging, by leaving the Paris Accord, by ceding 
leadership to China and others, we actually fell behind in an 
area that is essential to American jobs and good paying, 
homegrown jobs. The costs of doing nothing not only come in the 
form of more severe weather events and other costs to all of 
our communities, but also in lost job opportunities in the 
clean energy sector. So I appreciate this Administration's 
focus in that area.
    I want to follow up on some of the comments of my colleague 
from Maryland, Senator Cardin. On this Committee, you have a 
number of Senators very engaged in the Chesapeake Bay 
protection, including Chair Capito and Chairman Carper, Senator 
Cardin, and myself. It is because it is a multi-State 
responsibility. Because it is a multi-jurisdictional 
responsibility, EPA is right at the center. It is part of the 
glue that helps all of us row in the same direction. At least 
that is what we are supposed to be doing.
    And so over the last many years, we have succeeded on a 
bipartisan basis in preventing deep cuts proposed of the 
previous Administration to the EPA program. I want to thank my 
colleagues on both sides of the aisle for that effort. We are 
going to need you front and center here now to make sure that 
we hit our goals under the Chesapeake Bay Agreement for 2025. 
Some States, all States can do better, but some States are 
really lagging behind, including the State of Pennsylvania.
    So I just need your commitment that you will work with us 
across the State lines to make sure that we hit our targets in 
pollution reduction in accordance with the 2025 goal.
    Mr. Regan. Thank you for that, Senator Van Hollen. Yes, 
absolutely, it is my goal and desire to mobilize all of the 
resources that we need at EPA to be a partner to these States, 
so that we meet that 2025 goal.
    Senator Van Hollen. All right, because we are already 
behind. And in the case of Pennsylvania, significantly behind. 
We had hoped to work with the previous Administration to close 
that gap, and of course, in the State of Pennsylvania, lawsuits 
have been filed both by the State of Maryland but also other 
organizations. We would like to resolve these issues as soon as 
possible.
    Let me ask you about the Good Neighbor Air Transport Issue. 
Maryland has worked over the decades to address the issue of 
air pollution originating in other States, but falling in 
Maryland and into the Chesapeake Bay. In 2018, the Trump 
administration's EPA denied Maryland's good neighbor petition 
under Section 126(b) of the Clean Air Act regarding 36 upwind 
electric generating units in five other States. On May 9th of 
last year, the D.C. Circuit Court of Appeals granted Maryland's 
good neighbor petition for review in part and remanded the 
issue to EPA.
    I would like to get your commitment here today to work with 
us to address this downwind air pollution issue and a new 
review of Maryland's good neighbor petition under the Clean Air 
Act.
    Mr. Regan. Thank you for that question. You do have my 
commitment that this agency would review that petition. North 
Carolina is one of the States that has had to exercise that 
good neighbor petition. We were granted the petition, we ended 
up in court, and we won under the leadership of now-Governor 
Cooper.
    So we understand the impact of transport and the 
implications that that might have on a State's economy. So you 
have my commitment that we will review that.
    Senator Van Hollen. I appreciate that. And finally, just as 
you probably know, thousands, actually, over a thousand really 
dedicated EPA employees have left the agency over the last 4 
years, including a lot of people with very special expertise. 
So I hope you will work with our entire committee as you seek 
to rebuild morale at the EPA.
    Thank you.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Carper.
    Senator Carper. Yes, let me just say to Senator Van Hollen, 
who is leaving our Committee and is going to join the Foreign 
Relations Committee, something he has wanted to do for a long 
time. Just to say how much we valued, how much I valued his 
work with us, and the spirit that he brings to these issues.
    I want to draft on him for a minute, Mr. Regan, just want 
to draft for a minute, that is what we say in NASCAR. I want to 
draft on Senator Van Hollen just for a minute on the air 
transport issue, a similar situation. When I was Governor in 
Delaware, roughly 80 to 90 percent of the harmful emissions 
that come into our State, air emissions, come not from 
generated within, they come from without, and they are blowing 
into our State, from the north, from the west. I used to say I 
could literally shut down the economy of the State of Delaware, 
shut it down, and we would still be out of compliance.
    We basically got no help from the last Administration, and 
I am encouraged to hear that this is something you are 
knowledgeable about and have worked on before. We look forward 
to making sure that we treat other people the way we want to be 
treated. It is the Golden Rule all over again in a way 
everybody can understand.
    I want to just mention some of what we are experiencing. 
Delaware is the lowest lying State in America. Our State is 
sinking; the seas around us are rising. That is something that 
we are witnessing. We have also witnessed in this country, in 9 
in the last 10 years the hottest on record. Hottest on record.
    About a year ago, they had hurricane force winds in Iowa in 
the middle of the year, wiped about a third of their crops. 
Fire storms in California last year, Oregon and Washington last 
year, the size of my State.
    Sea level rise in Louisiana, we are reminded by our 
colleagues John Neely Kennedy, Bill Cassidy, in Louisiana, they 
lose a football sized area of wetlands every 30 minutes to the 
ocean, to the sea. Every 30 minutes. I remember being down in 
that State with Senator Landrieu maybe 10, 15 years ago. She 
said they would lose maybe one or two football fields of land, 
now it is like one every 30 minutes.
    Sea level rise in Louisiana, Arctic Circle. My wife was 
down in Antarctica a year ago. The temperatures down there 
broke records, all time records. We learned earlier last year 
that in the Arctic Circle, the temperature there reached 100 
degrees Fahrenheit. In the Arctic Circle, 100 degrees 
Fahrenheit.
    We have more named hurricanes last year than any year 
before. We ran out of names, we had to start with a new 
alphabet or something, as I recall. And I understand Hurricane 
Laura damaged last year, the property damage, casualty damage, 
was $19 billion. Last year we had 22 $1 billion disasters that 
flowed from hurricanes and storms, 22 in excess of $1 billion.
    Hurricane Florence was just in North Carolina alone, I am 
told, $24 billion. And the science is in, the reason why all 
this calamity and extreme weather is going in and the enormous 
loss of life and danger and property and economic value is 
because we have too much carbon in the air. We have too much 
carbon in the air. And too much methane in the air. We have too 
much HFCs, hydrofluorocarbon, in the air. And we have got to do 
something about it. If we don't, it is just going to get worse. 
In fact, it has been getting worse.
    The question is, can we do something about it, reduce the 
HFCs, reduce the carbon dioxide, can we do those things and 
create economic opportunity and jobs, the kind of stuff that 
Senator Sullivan is talking about? Every fiber of my being says 
we can do both. I think we got to, we have to do both.
    Would you just comment on that again? I know you have 
talked about it, but just come back to it again.
    Mr. Regan. Thank you for that. I absolutely agree that we 
have to do something about it. In North Carolina alone, in the 
last 5 to 7 years, we have seen three or four so called 500 
year, 1,000 year floods. These storms are very intense. We know 
that human activity is contributing to the intensity of these 
storms. So not only do we have to focus on solutions to 
mitigate climate change, which President Biden's aggressive 
agenda demonstrates that we can create good jobs on the 
mitigation side.
    We have also got to design resiliency in infrastructure 
plans, so that we can adjust to this new norm. We've got to 
adjust to the new storm intensity, the new flooding. We cannot 
build the same way we have always been. We can't put Humpty 
Dumpty back together the same way every time.
    So the answer to your question is, yes, we believe that 
human activity is intensifying this situation we find ourselves 
in. Yes, we believe that there are solutions to mitigate 
climate change. Yes, we believe that we can create jobs and 
safety while becoming more resilient. And yes, we believe that 
we can create jobs on the mitigation side as well.
    We believe that there is safety, that there is health 
outcomes, and there is job creation in all of these various 
scenarios. We just have to have a plan. We all have to be 
rowing in the same direction. And we have to come together, and 
everyone has to see themselves in this vision that we are 
painting.
    Senator Carper. Senator Coons and I had the opportunity to 
have a conversation today with our new President. We talked 
about what to do to help people, some of the kinds of people 
that Senator Sullivan was just talking about, people whose job 
skills may be are not relevant, maybe they just--that is the 
wrong way to say it, that it is not relevant. But there is just 
not the demand for those skills that there might have once 
been. Is there something that we can do to help them?
    One of the things we are experimenting with in Delaware, 
and you might want to consider this in other places, is how do 
we help folks to retrain, retool, to fill the jobs that are out 
there?
    I grew up in West Virginia, born in West Virginia. A lot of 
my neighbors were coal miners. We used to have hundreds of 
thousands of jobs in coal mining, including a bunch in West 
Virginia. I think in the country now we might have 50,000 jobs.
    We can't just forget those people. We have to find 
something to help them to do, to find new skills. Just give us 
some examples of how we might do that.
    Mr. Regan. One example is looking at President Biden's 
executive order solely focused on this question, looking at how 
do we help transition our States that are heavily dependent on 
coal and mining. The reality is that as we think about EPA sort 
of setting the rules of engagement for the level of emissions 
that we need to reduce in order to save the planet, the reality 
is that there are other agencies that are also major players in 
this that have resources to invest in research and development.
    We can really think about some new advantages in the supply 
chain that coal actually offers. We can really think about when 
we retool these communities, really understanding what the 
skills are. Most of the skills are transferable to needs that 
we have right now in terms of infrastructure, filling a gap for 
some of the research and development that is going into new 
science, technology, and the like.
    So my point is that I don't believe there is a silver 
bullet. I believe that it requires a robust conversation. I 
believe the market is trending in this direction. I believe 
technology is trending in this direction. I believe that 
American ingenuity, if we can all come together, can solve 
these problems, and we can lead the world.
    Senator Carper. I believe we have a second round. I 
appreciate the time. Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Ernst.
    Senator Ernst. Thank you, Madam Chair, and thank you, Mr. 
Regan, for appearing in front of our Committee today. I have a 
couple of really important issues that I want to visit with you 
about, very important to our Iowa farmers and our producers. I 
am so thankful to have had the conversation we did the other 
week. So thank you so much.
    One of the most important issues that the EPA will consider 
for my State is how to handle the renewable fuels standard. We 
all have very differing opinions maybe on this Committee. But 
it is very important to Iowans.
    Should you be confirmed for this position, waiting on your 
desk with anticipation when you get through the door will be a 
number of pending items related to the RFS. There will be some 
decisions on small refinery exemptions. You will have an RVO 
for 2021, there are pending cellulosic biofuel petitions, and a 
request by Governors to waive the RFS program because of COVID-
19.
    Then a few months later, EPA will begin figuring out the 
2022 RVO and how to handle volumes in 2023 and beyond, as well 
as determining how to handle some regulatory hurdles facing 
fuels, like E-15. There is a lot going on in this space.
    So in short, because there is a lot happening, EPA really 
does need to step in and provide guidance. So how will you 
ensure that these important matters, which really do have an 
outsized impact on many States like Iowa, and for a number of 
these States in the middle of the country. How will you look at 
this and make sure that they get handled in a way that provides 
further economic opportunity?
    Mr. Regan. Thank you, Senator, for that question. I too 
have enjoyed the conversations we have had on this topic.
    RFS is definitely a priority for this Administration. I 
recognize that there will be a number of things sitting on the 
desk if I am fortunate enough to be confirmed.
    The reality is that I want to sit down with my staff, sit 
down with legal counsel. There are a number of things that are 
caught up in litigation. There are a number of things that we 
need more transparency around how we arrived to those 
decisions. And we need to be sure that the agency actually 
applied the latest data, the latest science, and followed the 
letter of the law in some of the decisions that have been made.
    So we plan to do a thorough review of all of the decisions 
that fit under the umbrella of the RFS. But we don't plan to do 
that without consultation with you and with other stakeholders 
that will be impacted by these decisions.
    What I can promise you is, we will take a no surprise 
approach. We will be extremely transparent. We will be 
forthcoming with the science and the data and the legal 
determinations that we come to in order to make those 
decisions. And we will share those decisions with you.
    Senator Ernst. I think that is a very important first step. 
Hopefully, we continue to work beyond that. Transparency is 
something that we have felt has been lacking. And we fully 
expect that to have integrity in any sort of program, we need 
that from the EPA. We need to understand how those decisions 
are being made.
    So if confirmed, staying on the topic of the RFS, can you 
commit to a strong and growing role for corn ethanol in the 
RFS, including for 2023 and beyond, when the statutory tables 
have expired? Again, we have some hurdles coming up after 2022. 
EPA will be heavily, heavily involved in this. We do want to 
see the continuation of our renewables. Is that something you 
can commit to?
    Mr. Regan. Yes. I can commit to the fact that the President 
has indicated that agriculture will have a seat at the table in 
this Administration, especially as it relates to climate 
change. We are going to take a look at all the latest science 
and be sure that we are communicating that with you all.
    There is a commitment that, again, following the science 
and following the letter of the law, the intentions of the RFS 
will be a top priority for us.
    Senator Ernst. Wonderful. My time is running short, so I am 
going to jump ahead to WOTUS. On the first day in office, 
President Biden gave clear direction to EPA to review and 
rescind a number of the Trump EPA's major rulemakings, 
including the Navigable Waters Protection Rule. As you know 
this rule replaced the Obama administration's 2015 WOTUS rule. 
And the Navigable Waters Rule does enjoy widespread support 
from our farmers and ranchers.
    If confirmed, do you intend to rescind the Navigable Waters 
Protection Rule?
    Mr. Regan. Thank you for that question. If I am confirmed, 
I plan to take a look at what our options are to address any 
kind of lingering concerns, whether that be litigious or 
concerns with the community, bring our stakeholders together, 
as I have done in North Carolina, and take a look at what do we 
need to do to move forward to provide some certainty to our 
farming community, especially our small farmers, so that 
decisions can be made and investments are not stranded on the 
sidelines.
    But I also want to be sure that we do that in a way where 
we are protecting our water quality, our wetlands, and our 
bays.
    Senator Ernst. And I always believe, and maybe you do as 
well, but our farmers are the first conservationists and do a 
very good job through education and other means of putting 
those things into practice. So I appreciate that.
    Senator Capito. Senator Ernst, your time is expired.
    Senator Ernst. What we don't want to do is exacerbate the 
problem further.
    Thank you very much for your indulgence, Madam Chair.
    Senator Capito. Thank you.
    So I believe all our members have, wishing to ask a first 
round of questions have had the opportunity to do so. I am 
going to ask if you are OK if we go to a second round. I don't 
want to be very long, I don't believe. Do you need a little bit 
of a break, or are you OK?
    Mr. Regan. I am fine, thank you.
    Senator Capito. And your son is amazing. He is great. I 
have been watching him. I have seven grandchildren; not sure 
that would happen at our house.
    Senator Carper. When our boy was that age, what is he, 8 or 
9?
    Senator Capito. He's 7.
    Senator Carper. When my boys were that age, no way in the 
world I would have brought them to a hearing like this. I don't 
know if you have him sedated or what. He is a trouper.
    [Laughter.]
    Mr. Regan. There is a toy in the deal, Senator.
    Senator Carper. I hope it is a good one.
    Senator Capito. I hope it is a good one, yes.
    [Laughter.]
    Senator Capito. So I am going to yield my first questioning 
time to Senator Sullivan, then we will go to Senator Carper.
    Senator Sullivan. Thank you, Madam Chair.
    Mr. Regan, thanks again. I do want to, of course, get your 
commitment, if confirmed, to get up to Alaska.
    Mr. Regan. Yes, you have my commitment.
    Senator Sullivan. Absolutely great.
    Listen, to my friend Senator Carper, who is a good friend 
of mine, I just want to caution everybody on these discussions, 
the discussion of like, what is a relevant job and what isn't. 
All my constituents have relevant jobs right now. Let me give 
you one example. We can grow the economy, create millions of 
jobs and reduce greenhouse gas emissions.
    How do I know? Because we have already done that. From 2005 
to 2017, the United States reduced greenhouse gas emissions by 
almost 15 percent. That is more than any other major economy in 
the world, by far. How did that happen? It wasn't EPA 
regulations, no offense to the EPA, Obama, Trump, now Biden. It 
was the revolution in natural gas, period. Everybody knows 
that. President Biden used to brag about it last year on how 
important it is. That is oil and gas workers.
    So they are incredibly relevant. So we need to be cautious. 
Every job is relevant. My constituents have very relevant jobs. 
The last thing we want is to have senior Administration 
officials, John Kerry, Gina McCarthy, others, telling Americans 
what is relevant and not. That is not the way to bring people 
together.
    I want to talk a little bit about Alaska. We are the 
classic place where one size does not fit all. We are very big. 
My Texas colleagues get sick of it when I talk about we are two 
and a half times the size of Texas. If you split Alaska in 
half, Texas would be the third largest State in the country.
    But I mention that because so many things EPA does have an 
enormous impact on my State. Let me just give you a couple of 
stats. Alaska is home to 63 percent of the Nation's 
jurisdictional waters under the Clean Water Act. We are home to 
65 percent of the Nation's wetlands. Sixty-five percent of 
America's wetlands reside in my State.
    So that is why issues like the Waters of the U.S. are 
really, really important to my constituents. We have more 
coastline than the rest of the lower 48 States combined. We do, 
just in my State.
    So these issues are huge in Alaska, which is why I look 
forward to getting you up there if confirmed.
    Now, I want to turn to this really important issue, I am 
glad you are raising it, equity and environmental justice. The 
one groups that I want to talk about in particular are the 
large minority group in my State, which are Alaska Natives. The 
population includes my wife, my daughters, almost 20 percent of 
the population.
    We have over 30 communities in Alaska, mostly Alaska 
Native, that have no running water, no flush toilets, nothing. 
So one of my first pieces of legislation that I passed in this 
Committee with Senator Boxer was for communities that are 
disadvantaged like that.
    So can I get your commitment, if confirmed, to work with me 
on this issue, which just shouldn't happen. There shouldn't be 
communities in America that don't have running water and flush 
toilets. Can I get your commitment on that?
    Mr. Regan. Senator, absolutely. Absolutely.
    Senator Sullivan. That is an equity and environmental 
justice issue if there ever was one.
    Let me turn to a big map that I trot out a lot. This is 
from the American Medical Association. We are talking about 
jobs, why these policies are important for jobs. I am going to 
talk about not just for jobs, but for lives.
    The AMA did a study from 1980 to 2014, and it looked at 
what part of the country, what region had life expectancy 
increases. Where you see blue and purple, that is the most. My 
State had the biggest life expectancy increases in the country 
by far, 7, 8, 9, of up to 13 years.
    I have asked my colleagues in debates, because I have 
trotted this out a lot, give me a policy indicator more 
important is, are your constituents living longer. There are 
not many. In my State, that has happened. The reason it has 
happened is because these communities that you see in Alaska, 
where there is a big life expectancy, A, they start from a very 
low level. Most of the Alaska Native communities, really low 
life expectancies.
    But what happened from 1980 to 2014 is resource development 
happened. Oil and gas happened. Mining happened. That is why I 
get so emotional about these issues.
    These are equity issues. These are environmental justice 
issues. If this Administration wants to shut down these kinds 
of economic opportunities, this impacts people's jobs but also 
how long they live. So I would like to get your commitment 
before any big decisions are made on undermining these kinds of 
industries to work with me, work with my stakeholders.
    Madam Chair, I would just like to introduce a Wall Street 
Journal op-ed from the Mayor of the North Slope Borough, 
Inupiat leader that was entitled Goldman Sachs to Alaska 
Natives, Drop Dead. This was all the big banks, saying, we are 
not going to invest up there. What he said in his op-ed was, 
then I worry about the livelihood and life expectancy of the 
Native people of Alaska.
    So when you are talking about environmental justice, please 
don't forget about the Native people of my State. Because they 
have benefited from oil and gas and resource development jobs 
in a way that most Americans can't even imagine.
    So can I get your commitment when you are working these 
equity, environmental justice issues, to have my constituents 
front and center in your mind as well?
    Mr. Regan. Senator, I look forward to working with you and 
your constituents on all of these issues. And I would really 
love to get the details and the data behind that life 
expectancy chart there. I would love to study that, and have my 
staff study that.
    In areas where States are leading, we want to learn from 
those States, we want to replicate those things. So I look 
forward to that.
    Senator Sullivan. Great. Thank you very much.
    Senator Capito. Thank you.
    Senator Sullivan. Thank you, Madam Chair.
    Senator Capito. Senator Carper, a second round?
    Senator Carper. Thank you.
    Great source of greenhouse gas emissions in this country 
are mobile sources. Cars, trucks, and vans that we drive. We 
heard earlier today that our friends at General Motors have 
announced that they are going to be basically phasing out 
gasoline and diesel powered cars, trucks, and vans by 2035. A 
group of five auto companies found common cause with California 
and about 20 some other States last year to begin reducing and 
ratcheting down greenhouse gas emissions.
    I am encouraged with the letter that has been sent by the 
auto industry, many companies in the auto industry, to the 
President just in the past week that there is an eagerness to 
build on that five State deal, or rather the five car company 
deal with California, and others. There is a witness, an 
interest in building on that as a foundation to ramp up 
greenhouse gas emissions so that actually eliminating gasoline 
powered cars, trucks, and vans by 2035 is not a pipe dream.
    Would you talk about that? Will you talk about the 
willingness of the Administration to work to try to build on 
what is already happening in the marketplace and to work with 
companies like General Motors, Toyota, and others to actually 
get us to where we are talking about going, reducing emissions 
from the greatest source, that is our mobile sources?
    Mr. Regan. Absolutely. Thank you for that question and 
those statements. You are exactly right. I think that we are 
seeing the markets trend in a direction where technology is 
leading us. I believe that there are lots of jobs to be had in 
this area.
    Under President Biden's aggressive agenda, there is a real 
focus on transportation. EPA has a large role in that. I think 
that we have a lot of authority under the Clean Air Act, using 
some of our mobile source rules, to really structure and set 
the stage for how we usher in this new era that we are seeing 
the private sector move toward.
    A couple of points that I would like to make is, No. 1, we 
have the power to set these standards in a way that, again, 
defines the rules of engagement so all of these companies can 
move together in sync, but compete in a competitive market.
    No. 2, if we work very hard, we can see the benefits of 
good paying union jobs here in the United States, help to usher 
in this new era and earn a great salary at the same time. And 
No. 3, we will see tremendous benefits, not only from a climate 
standpoint, but we will see tremendous benefits to air quality.
    As we look at our roads and bridges and traffic patterns, 
we know that many of these roads go through communities that 
are disproportionately impacted by air pollution.
    So there is just so much to be gained here. EPA could play 
a leading role, using the Clean Air Act and our mobile source 
rulemaking. We can partner well with an automobile industry 
that is seizing this momentum. And we will get climate 
benefits, we will get jobs, and we will get better air quality 
for those who have been disproportionately impacted for too 
long.
    Senator Carper. Thank you.
    I had a conversation with Mary Barra last year, the CEO of 
General Motors, about the future of the auto industry, and the 
propulsion in the auto industry. Interesting enough, she said, 
I was trying to get her, to convince her from GM to join these 
other five auto companies in the agreement with California and 
a bunch of States. She said, I am already on an electric. That 
is the future, and that is where we are going.
    We need three things, in the industry, three things in 
order to be successful in this regard with respect to electric 
vehicles and hydrogen powered vehicles. One, she said, we need 
easy access to charging stations and fueling stations for 
hydrogen. We need technology that where we have the batteries 
that can recharge in minutes, not in hours. And she said, we 
need the ability to get range, at least 300 miles for a vehicle 
on a full charge of the battery. She said those are three 
things we need.
    One of those is something this Committee can do something 
about. I am sure my colleague, Senator Capito, remembers this 
when we passed the 5 year reauthorization of the Surface 
Transportation Act a year and a half ago in this Committee, we 
included in there a significant climate chapter. Part of that 
was building a series of corridors across the country where we 
have fueling stations and charging stations. That would be part 
of that, as introduced, as support for moving the industry.
    It is no good for us, for GM and Ford and Chrysler and 
others, to build electric powered vehicles or hydrogen powered 
vehicles, and nobody is going to buy them because they can't 
get them charged and refueled. We can do something about that.
    Last thing I am going to ask about, renewable, 
identification numbers. We have a refinery in Delaware City, 
they keep getting hammered by the volatility of something 
called RINs, Renewable Identification Numbers. Somebody else I 
think actually mentioned this in conjunction with renewable 
fuel standards. It has become a commodity, it is traded in a 
commodity. It disadvantages refineries, especially the smaller 
refineries. Because it is like someone is using, making out of 
this tool that was designed to make the renewable fuels 
standard work, making it hard to be successful.
    Is this something that you are familiar with and care 
about, know about?
    Mr. Regan. Yes. We have had some discussions on this, and 
understand how it fits into the full picture of the RFS, and 
understand that we really need to protect the integrity of 
these RINs. Also ensuring that we are looking holistically at 
the original intent of the RFS and the law and applying the 
correct data and science to be sure that we are protecting the 
integrity of those RINs.
    Senator Carper. One more quick question if I could, Madam 
Chairman. Would that be OK, one more?
    Senator Capito. Sure.
    Senator Carper. Thanks.
    Mr. Regan, the AIM Act legislation we passed here, the idea 
is to ratchet down HFCs over a 15 year period of time. HFCs are 
a thousand times more dangerous in terms of greenhouse gases 
and carbon dioxide, as you probably know. Would you commit that 
if confirmed, you will support the President's direction to the 
State Department to send the Kigali amendment to the Senate for 
ratification? And will you make implementation of the AIM Act, 
which is the legislation that does the phasedown over 15 years 
of HFCs, to make implementation of the AIM Act a top priority 
for EPA under your leadership?
    Mr. Regan. Yes. First of all, thank you and the other 
members for your leadership on that. HFCs is such an important 
topic.
    Senator Carper. What is it worth in terms of climate change 
and temperature? Is it half a degree Celsius, just this one 
thing, right?
    Mr. Regan. It is huge. It is very significant. You guys 
have done the heavy lifting, and it is our job to do the 
execution and implementation of that law.
    Senator Carper. Great. Thanks so much.
    Madam Chair, I ask unanimous consent to add to the record, 
to place a tribe's support for the Biden executive order into 
the record. I would also ask unanimous consent, if I could, to 
place into the record all materials, a catch all statement, to 
insert all materials into the record. It is going to be a 
pretty big record. A variety of materials including news 
articles, letters from stakeholders, reports, fact sheets and 
other materials that relate to today's nomination hearing for 
Secretary Regan to be Administrator of the EPA.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

    Senator Carper. And let me just say again, thank you so 
much. You have been a splendid Chairman.
    Senator Capito. However brief it is.
    [Laughter.]
    Senator Carper. There is nothing like going out on top.
    Senator Capito. Right.
    Senator Carper. You just knocked the ball out of the park, 
it makes me even more excited about working with you and our 
colleagues in the years to come.
    Mr. Regan, Michael, you did a great job here today. We are 
proud of you. I could barely see your wife's lips move when you 
spoke. We very much welcome her and your son, Matthew, to our 
family. Hopefully, we will be able to convince all of our 
colleagues to vote for you and get you confirmed so you can go 
to work.
    Thank you so much. God bless you.
    Mr. Regan. Thank you.
    Senator Capito. Thank you.
    I have just a few wrap up questions for my second round.
    I told you at the end of my first round that I wanted to go 
back and talk about your experience in North Carolina with the 
regulations under Section 111(d) of the Clean Air Act, 
including the Clean Air Plan and the ACE Rule. You talked 
slightly about this.
    Do you believe that Section 111(d) of the Clean Air Act 
provides the EPA with authority to regulate greenhouse gases 
from a power plant only inside the fence line, or can EPA 
regulate beyond the individual plant fence line? How do you 
feel about that?
    Mr. Regan. I would love to confer with my staff and with 
legal counsel to best determine how the courts have ruled on 
EPA's interpretation of that.
    Senator Capito. As you know, the courts have kind of been 
on both sides of that issue. I think it would make a 
determination to whether you could force a power plant to 
switch generation sources and only require say, a coal plant or 
natural gas plant to come up with best practices. So it does 
have great impacts, obviously, in certain parts of the country 
and certainly in my State as well.
    Senator Gillibrand mentioned PFAS. You and I talked about 
this on the phone. I am very passionate about this issue, very 
concerned about the impacts of PFAS in the long term. I did 
press Administrator Wheeler to get to a clean drinking water 
standard, didn't get there. I agree with her, it didn't come, 
there is a pathway toward it. But I am like minded with her in 
terms of the restlessness of getting there and the delay. So I 
would impress upon you how important I think that is to our 
Nation and to our Nation's younger, as they are living through 
the impacts of what this could have on drinking water.
    So I would just ask a pledge to keep working with me and us 
on that.
    Mr. Regan. Absolutely.
    Senator Capito. The last thing I would say is, and to 
Senator Carper, thank you for letting me have the joy of 
chairing my one Committee hearing here. I know we are going to 
be able to work well together, and we anxious to go to the 
Transportation Bill.
    But what I hear Senator Carper talk about electric 
vehicles, I think that is very aspirational. I saw where the 
President said he wants all thorough vehicles to be electric. 
And I think that is a great aim.
    But we have to realize here, we have to power these things 
with electricity. If we disenfranchise a lot of the power 
sources that we can make cleaner in the process, I am talking 
natural gas and coal, that now provides our baseline fuel, I 
mean our baseline power here in this country, we are going to 
stick the plug in and try to power the vehicle and there is not 
going to be enough power. It is going to be a power surge in 
this country if we get to this point of having electric 
vehicles.
    So at some point we really have to look at, and we see 
certain States like California that have had outages, and have 
had to throttle different power sources because they are 
running low on a really hot day or maybe a really cold day or 
something of that nature.
    So I will just say in West Virginia we say coal keeps the 
lights on, which it does, but it also powers a lot of vehicles, 
and it employs a lot of people. So again, when we talk about 
what the effects are of transitioning jobs and environmental 
justice, and how it impacts people in all different 
communities, and Senator Booker is very passionate in this 
area, I think the experience that I experienced with the 1.8 
million West Virginians in the past several years during the 
Obama administration where now we see some of the same players, 
not you, you are a fresh face, very transparent, very ready to 
work, and I really welcome that.
    Because I am concerned, because some of the same words and 
the same rhetoric was given to us, we are going to take care of 
you, we are going to retrain workers, they are going to learn 
to code, they are going to move, they are going to do this, 
they are going to do that, and we just got dropped on our 
heads.
    It really, really hurt our part of the country. I am sure 
you have seen some of that in certain parts of North Carolina 
in different industries.
    So I just am hoping, I am hoping, and I am an optimistic 
person, so maybe I am even hoping toward believing, but I am 
hoping that it is not just another committee that is going to 
give the State $2 million to have a committee meeting so we can 
figure out how we are going to make things better and then 
nothing ever happens and no change ever occurs.
    So I want to be your partner in this. I want to be able to 
join with you and the rest of the members of the Senate, but 
particularly those hard hit areas. Because it has been very, 
very difficult to try to rebound from.
    So with that, I would say, unless you wanted to make a 
comment, I would say we are about to wrap up.
    Senator Carper. Madam Chair, before we wrap up?
    Senator Capito. Yes.
    Senator Carper. One last thing. For a long time, Delaware 
did not use, when I was Governor, we didn't use the Economic 
Development Administration. We didn't use EDA. As it turns out, 
we didn't have, we hadn't produced the kind of comprehensive 
economic development plan that EDA was looking for in order to 
make us eligible to apply for grants.
    One of the grants we obtained from EDA about a year or 2 
ago was to enable, to take money raised by, believe it or not, 
auto dealers, by our poultry processors, an EDA grant. The idea 
was to work with our statewide community college, Delaware 
Technical Community College, to create something, a center for 
automotive excellence. We now have in southern Delaware, in our 
county seat of Georgetown, a Delaware Technical Community 
College, top of the line to attract and retain folks to work 
for auto dealers, vehicles of the future, do the maintenance 
work, to work for the poultry industry trucks and so forth. But 
we did it with the help of the EDA, and we worked with our 
community college.
    I think there is something there in terms of retraining and 
retooling, we have jurisdiction over EDA.
    Senator Capito. Right. That is the good news.
    Senator Carper. We have jurisdiction. And the Biden 
proposal, Build Back Better, they asked for $3 billion--$3 
billion for the EDA. We have never done more than about $300 
million in a year. Three billion dollars is a huge amount of 
money. I think there is a chance to partner in a more creative 
way to help meet the skill sets and needs in the marketplace, 
but also that a lot of folks, if given the opportunity to use 
or learn a new skill, they do it. And they are doing it, we are 
signed up fully at the Center for Automotive Excellence in 
Georgetown.
    Senator Capito. Well, I look forward to the EDA discussion. 
I think that we have used the EDA actually really well in West 
Virginia most recently on a lot of different infrastructure 
development and job training and development. So I do think it 
has a place because it is for underserved and unserved areas. 
So I look forward to working with you on that.
    I just want to really thank you. You have been an excellent 
witness. You have answered questions with a lot of honesty, and 
your promise to get back to people is very much appreciated.
    I think there are no more questions. Members may submit 
follow up written questions for the record. They are called 
QFRs here. And by 4 p.m. on Friday, February 5th, the nominee, 
I would ask Secretary Regan to respond to these questions by 10 
a.m. on Monday, February the 8th. So there goes your weekend.
    I would like to thank Secretary Regan for your time and 
testimony, and thank your beautiful family for being here with 
us.
    I wish you the best of luck.
    Mr. Regan. Thank you so much.
    Senator Capito. Thank you.
    We are adjourned.
    [Whereupon, at 4:56 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
